 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 REVIEW OF NEW MEXICO MEDICAID
PERSONAL CARE SERVICES PROVIDED
  BY COORDINATED HOME HEALTH



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                      September 2012
                                                       A-06-09-00064
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (the State agency), is responsible for administering the Medicaid
program.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for
individuals with intellectual disabilities, or an institution for mental disease. The services must
be (1) authorized by a physician pursuant to a plan of treatment or, at the State agency’s option,
otherwise authorized in accordance with a service plan approved by the State agency;
(2) provided by an attendant who is qualified to provide such services and who is not the
recipient’s legally responsible relative; and (3) furnished in a home and, at the State agency’s
option, at another location. Examples of personal care services include, but are not limited to,
cleaning, shopping, grooming, and bathing.

The State agency contracts with a third-party assessor to perform an in-home assessment of each
recipient that determines the types and amounts of care needed and to develop a personal care
services plan. In addition, New Mexico law requires a supervisor from the personal care services
provider agency to visit each recipient or his/her personal representative in the recipient’s home
monthly. The State agency periodically reviews provider agencies to ensure compliance with
Federal and State requirements.

The State agency reported to CMS personal care services expenditures of approximately
$433 million ($309 million Federal share) from October 1, 2006, through September 30, 2008.
Of that amount, Coordinated Home Health (Coordinated), a personal care services provider in
Las Cruces, New Mexico, received $37,676,105 ($26,931,344 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency ensured that Coordinated’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always ensure that Coordinated’s claims for Medicaid personal care
services complied with certain Federal and State requirements. Of the 100 claims in our sample,



                                                  i
54 (totaling $6,939) complied with requirements, but 46 (totaling $8,140) did not. Three of the
forty-six claims were partially allowable. The allowable portion of the three claims was $406.
The 46 claims contained a total of 60 deficiencies: 49 deficiencies on insufficient attendant
qualifications and 11 deficiencies on other issues. As a result, Coordinated improperly claimed
$7,734 for the 46 claims.

Based on our sample results, we estimated that Coordinated improperly claimed at least
$10,962,174 (Federal share) for personal care services during the period October 1, 2006, to
September 30, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $10,962,174 paid to Coordinated for unallowable
       personal care services and

   •   ensure that personal care services providers maintain evidence that they comply with
       Federal and State requirements.

COORDINATED COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Coordinated disagreed with almost all of our
findings. Coordinated’s comments are included in their entirety as Appendix D. Along with its
comments, Coordinated provided documentation that it did not provide during our review. After
reviewing the new documentation, we reevaluated some claims and determined that 13 complied
with Federal and State regulations. We revised the findings and recommendations accordingly.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its written comments on our draft report, the State agency disagreed with our recommended
refund amount. The State agency said that five of the six categories of deficiencies (i.e.,
cardiopulmonary resuscitation (CPR) and first aid certifications, annual training, tuberculosis
testing, supervisory visits, and physician authorization) did not justify withholding Federal funds
because the findings did not support that payments were improperly made. The State agency
also said that the documentation requirements for four of the six categories (i.e., CPR and first
aid certifications, annual training, tuberculosis testing, and supervisory visits) are not Federal
requirements; they are State requirements, which do not require recovery of payments.

The State agency acknowledged that for the two claims in the remaining category (i.e.,
unsupported units of payment), there was a single overpayment for one claim. The State agency
added, however, that the overpayment was an isolated occurrence and did not support
extrapolating to the universe because (1) the finding does not reveal a pattern of noncompliance
and (2) the overpayment was within the tolerance limits established by certain Federal programs.




                                                 ii
The State agency said that the other claim was simply missing a timesheet and that there was no
evidence that services were not provided.

The State agency’s comments are included in their entirety as Appendix E.

We stand by our reported findings and recommendations. The deficiencies cited in the report are
based on significant service-related requirements and are too numerous to be dismissed as
infrequent occurrences. Regarding the State agency’s assertion that requirements for four of the
six categories of deficiencies are non-Federal requirements, three (i.e., CPR and first aid
certifications, annual training, and tuberculosis testing) are based on Federal law and regulations,
which require personal care attendants to be qualified. Further, requirements for supervisory
visits are integral to the contract between the State and the personal care services agency, which
directly affects how the State provides personal care services to its beneficiaries.

Regarding the State agency’s assertion that the findings do not reveal a pattern of
noncompliance, extrapolating the results of a statistically valid sample to a population has a high
degree of probability of being close to the results of a 100-percent review of the same
population. Our statistically valid estimates support our findings and estimated overpayment
amount. In addition, pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits
are intended to provide an independent assessment of U.S. Department of Health and Human
Services programs, operations, grantees, and contractors. The tolerance limits the State agency
cited in its comments about certain Federal programs do not apply to our audits.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              New Mexico’s Personal Care Services Program .................................................1
              Federal and State Requirements...........................................................................1
              Personal Care Services Expenditures...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          ATTENDANT QUALIFICATION DEFICIENCIES .....................................................4
               Cardiopulmonary Resuscitation and First Aid Certifications ..............................4
               Annual Training ...................................................................................................5
               Tuberculosis Testing ...........................................................................................5

          OTHER DEFICIENCIES ................................................................................................5
               Supervisory Visits ................................................................................................5
               Unsupported Units Claimed .................................................................................5
               Physician Authorization .......................................................................................5

          EFFECT OF DEFICIENCIES .........................................................................................6

          RECOMMENDATIONS .................................................................................................6

          COORDINATED COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE....................................................................................................................6
               Tuberculosis Testing ............................................................................................6
               Annual Training ...................................................................................................7
               Cardiopulmonary Resuscitation and First Aid Certifications ..............................8
               Supervisory Visits ................................................................................................8
               Physician Authorization, In-Home Assessment, and Personal Care Services
                Plan ...................................................................................................................9
               Unsupported Units Claimed .................................................................................9
               Imperfect Compliance ..........................................................................................9
               Sampling Methodology .......................................................................................10

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE ................................................................................................................................11
    State Agency Comments ...................................................................................................11
    Office of Inspector General Response ..............................................................................12
                                                                    iv
OTHER MATTER.....................................................................................................................13

          MEAL PREPARATION AND HOUSEKEEPING SERVICES
           PAID FOR RECIPIENTS LIVING WITH ATTENDANTS ........................................13

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: REASONS FOR DEFICIENT CLAIM LINES

          D: COORDINATED COMMENTS

          E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS




                                                                 v
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (State agency), is responsible for administering the Medicaid
program.

New Mexico’s Personal Care Services Program

The New Mexico personal care services program provides a wide range of services for the
elderly and individuals with a qualifying disability. The goal of the personal care services
program is to improve recipients’ quality of life and prevent them from having to enter a nursing
facility. The State agency requires recipients to obtain a physician authorization form that
documents the medical need for personal care services. For each recipient, the State agency
contracts with a third-party assessor that performs an in-home assessment to determine the types
and amounts of care needed to develop a personal care services plan (PCSP). The third-party
assessor uses those assessments and the physician authorization forms to prepare recipients’
weekly schedule of services, which typically are in effect for 1 year.

Federal and State Requirements

The State agency must comply with Federal and State requirements when determining and
redetermining whether recipients are eligible for personal care services. Pursuant to section
1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), personal care
services may be provided to individuals who are not inpatients at a hospital or residents of a
nursing facility, an intermediate care facility for individuals with intellectual disabilities, 1 or an
institution for mental disease. The services must be (1) authorized for an individual by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State; (2) provided by an attendant who is
qualified to provide such services and who is not the recipient’s legally responsible relative; and
(3) furnished in a home and, at the State agency’s option, at another location.

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Circular A-87, Attachment A, section C.1.c., states that to be allowable, costs must be authorized
or not prohibited by State or local laws or regulations.


1
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).

                                                      1
New Mexico Administrative Code (NMAC) section 8.315.4.9(A) states that personal care
services are delivered pursuant to a PCSP and (1) include a range of services to recipients who
are unable to perform some or all activities of daily living because of a disability or functional
limitation(s); (2) permit an individual to live in his or her home rather than an institution and to
maintain or increase independence; and (3) include, but are not limited to, bathing, dressing,
grooming, and shopping.

NMAC section 8.315.4.11A(17) states that provider agencies are responsible for maintaining
appropriate records of services provided to recipients. NMAC section 8.315.4.11 defines
(1) attendant qualifications related to tests for tuberculosis (TB), annual training,
cardiopulmonary resuscitation (CPR) and first aid training, and criminal background checks and
(2) the provider agency’s responsibility to maintain documentation on attendant qualifications.
NMAC section 8.315.4.11A(31) requires provider agencies to conduct a monthly supervisory
visit with each recipient or his or her personal representative in the recipient’s home. The State
agency periodically reviews personal care services provider agencies to ensure their compliance
with Federal and State requirements. NMAC section 8.315.4.11A(21) requires the State agency
to review a written justification for, and issue an approval (if warranted) of, instances in which
any personal care services will be provided by the recipient’s legal guardian or attorney-in-fact.

Personal Care Services Expenditures

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). From October 1, 2006, through September 30, 2007, the FMAP in New Mexico was
71.93 percent; from October 1, 2007, through September 30, 2008, the FMAP was 71.04 percent.
The State agency reported to CMS personal care services expenditures of approximately
$433 million ($309 million Federal share) from October 1, 2006, through September 30, 2008.
Of that amount, Coordinated Home Health (Coordinated), a personal care services provider in
New Mexico, received $37,676,105 ($26,931,344 Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that Coordinated’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

Scope

This audit covered the $37,676,105 the State agency paid to Coordinated for 277,724 claim lines
(hereafter referred to as “claims”) paid for the period October 1, 2006, through September 30,
2008. We limited our review of internal controls to the State agency’s oversight of personal care
services providers and Coordinated’s procedures for maintaining documentation related to
attendants and recipients.




                                                  2
We conducted our fieldwork at the State agency office in Santa Fe, New Mexico; the third-party
assessor’s office in Albuquerque, New Mexico; Coordinated’s headquarters in Las Cruces,
New Mexico; and 11 other Coordinated offices in southern New Mexico.

Methodology

To accomplish our objective, we:

       •   reviewed Federal requirements for the Medicaid personal care services program;

       •   reviewed State documents for the personal care services program: the New Mexico
           State plan amendment (Attachment 3.1-A, effective September 1, 2000) and the
           NMAC;

       •   interviewed State agency officials to gain an understanding of the personal care
           services program and the State agency reviews completed before the start of our
           fieldwork;

       •   obtained from the State agency all claim data for personal care services that were paid
           from October 1, 2006, through September 30, 2008, and reconciled the totals to the
           amounts claimed during the same period on the Form CMS-64, Quarterly Medicaid
           Statement of Expenditures for the Medical Assistance Program;

       •   totaled the paid-claims data by provider;

       •   selected Coordinated to review based on payments for personal care services claims it
           received totaling $37,676,105 for the audit period;

       •   selected a random sample of 100 Coordinated claims (Appendix A);

       •   met with Coordinated officials to gain an understanding of Coordinated’s policies and
           procedures and of documentation in Coordinated’s recipient and attendant personnel
           files;

       •   obtained recipient documentation from the third-party assessor and Coordinated for
           each sampled item;

       •   identified the attendant(s) included in each sampled item and obtained documentation
           Coordinated maintained in the corresponding personnel files;

       •   obtained from the New Mexico Department of Health documentation of criminal
           background checks on the identified attendants;

       •   evaluated the documentation obtained for each sampled item to determine whether it
           complied with Federal and State Medicaid requirements;


                                                3
         •   discussed the results of our audit with officials from CMS, the State agency, and
             Coordinated;

         •   gave Coordinated an opportunity to provide any additional support for claims with
             deficiencies;

         •   calculated the value of the unallowable reimbursement Coordinated received for the
             sampled items; and

         •   estimated the unallowable Federal Medicaid reimbursement paid for the 277,724
             claims (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The State agency did not always ensure that Coordinated’s claims for Medicaid personal care
services complied with certain Federal and State requirements. Of the 100 sampled items, 54
claims (totaling $6,939) complied with requirements, but 46 (totaling $8,140) did not. Three of
the forty-six claims were partially allowable. The allowable portion of the three claims was
$406. The 46 claims contained a total of 60 deficiencies: 49 deficiencies on insufficient
attendant qualifications and 11 deficiencies on other issues. As a result, Coordinated improperly
claimed $7,734 for the 46 sampled items.

See Appendix C for details of the deficiencies identified by sampled items.

Based on our sample results, we estimated that Coordinated improperly claimed at least
$10,962,174 (Federal share) for personal care services during the period October 1, 2006,
through September 30, 2008.

ATTENDANT QUALIFICATION DEFICIENCIES

Cardiopulmonary Resuscitation and First Aid Certifications

NMAC section 8.315.4.11A(2)(d) requires provider agencies to maintain copies of all CPR and
first aid certifications in the attendants’ files and to ensure that these certifications are current. 2
For 20 of the 100 sampled items, Coordinated did not provide evidence that the attendant was
certified in CPR and/or first aid on the dates of service.



2
 The entities that provided the training determined how long the certificates were valid, typically 2 years from the
date the attendants passed the courses.
                                                          4
Annual Training

NMAC section 8.315.4.11A(2) requires provider agencies to provide all attendants a minimum
of 12 hours of training per year; section 8.315.4.11A(33) requires provider agencies to maintain
in attendants’ files copies of documentation that all training had been completed. For 20 of the
100 sampled items, Coordinated did not provide evidence that the attendants had completed 12
hours of annual training for the calendar year of the dates of service.

Tuberculosis Testing

NMAC section 8.315.4.11A(37) requires provider agencies to ensure that their attendants obtain
a TB skin test or chest x-ray upon initial employment and to document the results of TB tests and
x-rays in attendant files. NMAC specifies that an attendant who tests positive for TB cannot
begin providing services until he or she receives appropriate treatment. For 9 of the 100 sampled
items, Coordinated could not provide evidence that the attendants had received a TB skin test or
chest x-ray or that the attendants had tested negative for TB or had been appropriately treated
before the dates of service.

OTHER DEFICIENCIES

Supervisory Visits

NMAC section 8.315.4.11A(31) requires attendant supervisors to meet with recipients and/or
their personal representatives in the recipients’ homes at least once a month. For 8 of the 100
sampled items, Coordinated did not provide evidence that the attendants’ supervisors had made
the required visits.

Unsupported Units Claimed

NMAC section 8.315.4.11A(13) requires provider agencies to maintain records that fully
disclose the extent and nature of the services furnished to the recipient. For 2 of the 100 sampled
items, Coordinated did not have evidence to support the amount of units claimed for attendant
services. Specifically, for one claim, there was no timesheet; for the second claim, the number of
units on the timesheet was less than the number of units claimed.

Physician Authorization

Federal regulations (42 CFR § 440.167) require personal care services to be authorized by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State. In addition, NMAC requires third-party
assessors or their designees to maintain for each recipient evidence of a physician authorization
form signed by a physician, physician assistant, nurse practitioner, or clinical nurse specialist
(section 8.315.4.16A). For 1 of the 100 sampled items, Coordinated did not provide
documentation of a physician authorization.




                                                 5
EFFECT OF DEFICIENCIES

Based on our sample, we estimated that Coordinated improperly claimed at least $10,962,174
(Federal share) for personal care services.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government the $10,962,174 paid to Coordinated for unallowable
        personal care services and

    •   ensure that personal care services providers maintain evidence that they comply with
        Federal and State requirements.

COORDINATED COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Coordinated disagreed with almost all of our
findings. Coordinated’s comments, which we summarize below, are included in their entirety as
Appendix D.

Along with its comments, Coordinated provided documentation that it did not provide during our
review. After reviewing the documentation, we reevaluated some claims and determined that 13
complied with Federal and State regulations. 3 We revised the findings and recommendations
accordingly.

Tuberculosis Testing

Coordinated Comments

Coordinated stated that New Mexico regulations pertaining to TB testing were ambiguous and
that it had obtained a letter from the New Mexico Department of Health (DOH) indicating that
TB testing was no longer required for personal care attendants. The letter, which was written by
the New Mexico Public Education Department, stated that “[a]s of July 30, 2004, TB testing is
no longer a requirement for employment in health facilities, schools and day care centers.”
Further, Coordinated stated that DOH historically had asserted authority over TB testing of
health facility employees, including personal care attendants, and had repealed its health facility
personnel TB testing requirement effective July 30, 2004.

Nonetheless, Coordinated stated that it had documentation of negative TB test results obtained
(1) before the dates of service for most of the sampled items and (2) after the dates of service for
some claims. Coordinated said that credit should be given for those claims in which the

3
 We based our original findings and our reevaluations on NMAC section 8.315.4, which was implemented on
July 1, 2004, and was in effect during our audit period. The regulations have since been revised.

                                                     6
attendants had subsequently obtained TB tests because the test confirmed that the attendants
were free of transmissible TB on the dates of service.

Office of Inspector General Response

Coordinated provided us a copy of the July 21, 2004, New Mexico Public Education Department
letter during our fieldwork. We forwarded the letter to the State agency, which responded that
the letter did not apply to personal care services and that TB testing was still required.
We removed the deficiencies from the report that were related to negative TB test results
obtained before the dates of service on our sampled items. However, for the remaining
deficiencies, we did not accept Coordinated’s assertion that TB tests performed after the dates of
service should be allowable. In accordance with NMAC section 8.315.4.11A(37), we counted a
sampled item as deficient if Coordinated could not provide medical documentation showing that
the attendant tested negative for TB before the dates of service.

Annual Training

Coordinated Comments

Coordinated stated that we improperly applied a “calendar” year standard in our review of the
annual training requirement and that the personal care regulations did not specify which
12-month period constituted a “year.” Coordinated stated that it based annual training on the
attendant’s “employment anniversary year” and that we should have done the same.

Coordinated stated that it was led to believe that we did not credit training hours related to CPR
and first aid courses and that we disallowed at least one claim because the attendant’s annual
training records did not include evidence of a test.

Coordinated also said that it can document substantial compliance with State training
requirements for all 100 sampled items because a shortage of 1 to 3 hours of training for no more
than 10 percent of sampled caregivers is an insufficient basis for concluding noncompliance.

Office of Inspector General Response

There is no Federal or State requirement that defines what constitutes a year. Therefore, we
relied on the Coordinated policy manual that was in effect for the audit period, which stated that
“[t]raining hours are calculated from January to December of each year.”

We counted training hours for CPR and first aid courses towards the 12-hour annual requirement
when those courses were taken in the calendar year of the dates of service. We did not disallow
training hours based on the lack of a test; we accepted training rosters and other appropriate
documentation.

We removed some of the deficiencies noted in the report based on additional documentation
Coordinated provided that documented 12 hours of training within the calendar year of the dates
of service. However, we cannot accept Coordinated’s assertion of substantial compliance as a
substitute for missing annual training hours and maintain that our remaining findings are correct.
                                                 7
We evaluated each sample item for compliance with Federal and State regulations. In addition,
we based the attendant qualification deficiencies cited in the report on significant service-related
requirements. Taken as a whole, these deficiencies are sufficiently numerous and widespread to
be considered more than just technical deficiencies; they could affect quality of care.

Cardiopulmonary Resuscitation and First Aid Certifications

Coordinated Comments

Coordinated stated that it had documentation for CPR and first aid certifications for almost all of
the sampled items and thus was in substantial compliance with the requirement. For several of
these claims, Coordinated stated that it was in substantial compliance because the attendant was
out of compliance with the requirement for fewer than 3 months. Coordinated noted that for the
remaining claims, the absence of documented certifications more likely reflects a recordkeeping
error, not that the attendant was without the required life-saving skills.

Office of Inspector General Response

Coordinated provided some additional documentation for CPR and first aid certifications that
met the requirements, and we reduced the deficiencies noted in the report accordingly. We
cannot accept Coordinated’s assertion of substantial compliance as a substitute for missing CPR
and/or first aid certifications and maintain that our remaining findings are correct. We evaluated
each sample item for compliance with Federal and State regulations. In addition, we based the
attendant qualification deficiencies cited in the report on significant service-related requirements.
Taken as a whole, these deficiencies are sufficiently numerous and widespread to be considered
more than just technical deficiencies; they could affect quality of care. For the claims
Coordinated attributed to recordkeeping errors, we cannot conclude that the attendants had the
required skills without certifications.

Supervisory Visits

Coordinated Comments

Coordinated stated that it had documentation of monthly supervisory visits for almost all of the
sampled items and thus was in substantial compliance with the requirement. For a few other
claims, Coordinated stated that it was in substantial compliance because either multiple attempts
at visits had been made during the month of the sampled item or 12 visits had been made during
the year, but one had not been made during the month of the sampled item.

Office of Inspector General Response

Coordinated provided additional documentation of a supervisory visit that met the requirement,
and we reduced the number of deficiencies accordingly. We cannot accept Coordinated’s
assertion that multiple attempts at visits during the month of the sampled item or 12 supervisory
visits made during the year are an adequate substitute for conducting an actual supervisory visit
during the month of the dates of service and maintain that our remaining findings are correct.
NMAC section 8.315.4.11A(31) requires attendant supervisors to meet with recipients and/or
                                                 8
their personal representatives in the recipients’ homes at least once a month. Documentation of
unsuccessful attempts at supervisory visits does not meet the supervisory visitation requirements.

Physician Authorization, In-Home Assessment, and Personal Care Services Plan

Coordinated Comments

Coordinated said that we were incorrect to cite it for deficiencies related to physician
authorizations and in-home assessments. Coordinated stated that it had PCSP documentation for
all sampled items and that the regulations do not require the provider agencies to obtain and
maintain copies of physician authorizations and in-home assessments.

Office of Inspector General Response

Coordinated provided us with the physician authorization, in-home assessment, and PCSP for
one claim that was missing these three documents, and we reduced the number of deficiencies
accordingly. However, one claim was still missing a physician authorization for the applicable
PCSP. We reviewed files at both the third-party assessor and Coordinated and could not locate
the applicable physician authorization. Although we agree that State regulations place the
responsibility of maintaining the physician authorization with the third-party assessor, Federal
and State regulations (42 CFR § 440.167 and NMAC section 8.315.4.16A, respectively) require
that, for personal care services to be reimbursable, a physician authorization is required.

Unsupported Units Claimed

Coordinated agreed with our finding.

Imperfect Compliance

Coordinated Comments

Coordinated stated that New Mexico law does not require compliance with NMAC section
8.315.4 as a condition of payment for personal care services. Rather, NMAC section 8.315.4
details the conditions for provider participation in the personal care services program.
Coordinated also said that the State agency does not use recoupment of payments as an
enforcement tool in policing providers in the Medicaid program.

Office of Inspector General Response

To provide a valid and payable service, personal care services providers must meet Federal
requirements in section 1905(a)(24)(B) of the Act and implementing regulations at 42 CFR
§ 440.167, which require personal care services to be provided by a qualified attendant. To be a
qualified attendant in New Mexico, the attendant must meet the NMAC requirements related to
the attendant qualifications discussed above. Therefore, the NMAC attendant qualification
requirements are conditions of payment because an attendant who is not qualified cannot provide
valid personal care services as defined by Federal statute and regulation. We based the other

                                                9
deficiencies we identified on regulatory requirements that are integral to the definition of
personal care services and that must be met for the services to be payable as medical assistance.

Sampling Methodology

Coordinated Comments

Coordinated stated that extrapolating our audit findings for the 100 sampled items to the
population of all 277,724 personal care claims that Coordinated submitted to Medicaid for the
period October 1, 2006, to September 30, 2008, is inconsistent with New Mexico auditing
standards. Specifically, New Mexico’s Medicaid program has a long history of not extrapolating
the findings of audits that it conducts to a larger universe of claims. Coordinated said that New
Mexico’s Medicaid program has had a policy of recouping funds on a line-by-line basis.

Coordinated said that it had identified a decimal point error in the “LINE_PC_UNITS” 4 for at
least 27 of the sampled items. Coordinated said, for example, that the units corresponding to
claim 31 should be 68, not 6.8. Coordinated said that, as a result, these decimal point errors call
into question the accuracy of the data from which we drew our sample and the accuracy of our
extrapolated findings. Coordinated said that it believes that we should have discovered these
errors during our data validation process.

Office of Inspector General Response

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs,
operations, grantees, and contractors. Accordingly, we are not required to determine whether our
extrapolation of errors identified in our audit is consistent with New Mexico’s standards.

The validity of the use of sampling and extrapolation as part of audits in connection with Federal
health programs has long been approved by courts. 5 In particular, “[p]rojection of the nature of
a large population through review of a relatively small number of its components has been
recognized as a valid audit technique.” 6 Courts have not determined how large a percentage of
the entire universe must be sampled to be held valid; 7 however, the type of sample used here—a
simple random sample—is recognized as a valid type of collection for extrapolation purposes. 8
4
 The “LINE_PC_UNITS” Coordinated refers to are the “LINE_PD_UNITS.” These units refer to the time charged
on the claim.
5
 See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D.Ga. 1977) (ruling that sampling and
extrapolation are recognized as valid audit techniques for programs under Title IV of the Social Security Act);
Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random
sampling and subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois
Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation
were valid statistical techniques to calculate Medicaid overpayments claimed against an individual physician).
6
    State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D.Ga. 1977).
7
    Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
8
    Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
                                                           10
Further, such statistical sampling and such a methodology may be used in cases seeking recovery
against States and individual providers or private institutions alike.9

The Departmental Appeals Board (DAB) has stated that using statistical sampling to estimate the
amount of overpayment is more reasonable, practicable, and cost-effective than claim-by-claim
review when a “magnitude” of disputed claims exists. See, e.g., Tennessee Department of
Health and Environment, DAB 898 (1987), and Ohio Department of Public Welfare, DAB 226
(1981).

We did not use the “LINE_PC_UNITS” field or any of the other numeric fields (unit counts or
dollar amounts) from the claims data provided by the State agency to draw our sample. Nor did
we use any of the numeric fields from the State agency’s claims data to extrapolate our findings.
We used only the claim and line numbers from the State agency claims data when creating our
sampling frame. We used the number units shown in Coordinated’s supporting documentation
for each claim line and the unit rate for personal care (established by the State agency) to arrive
at the actual payment amount for the 100 sampled items. After evaluating the service on a claim
to determine the allowable payment amount, we used the total number of unique sampled items
derived from the claims data provided by the State agency to estimate the unallowable personal
care services payments.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

State Agency Comments

In its written comments on our draft report, the State agency disagreed with our recommended
refund amount.

The State agency said that five of the six categories of deficiencies (i.e., CPR and first aid
certifications, annual training, tuberculosis testing, supervisory visits, and physician
authorization) did not justify withholding Federal funds because the findings did not support that
payments were improperly made. The State agency also said that the documentation
requirements for four of the six categories (i.e., CPR and first aid certifications, annual training,
tuberculosis testing, and supervisory visits) are not Federal requirements; they are State
requirements, which do not require recovery of payments.

The State agency agreed that for the two claims in the remaining category (i.e., unsupported units
of payment), there was a single overpayment for one claim but stated that this deficiency was an
isolated occurrence and did not support extrapolating the overpayment to all claims submitted
during the 2-year review period. The State agency said that the overpayment was only
0.05 percent of all claims reviewed in the audit, far less than the tolerance limits established in
certain Federal programs. 10 The State agency added that in these programs, standard Federal

9
    Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).
10
  The State agency cited 42 CFR § 431.865 (which establishes a 3-percent tolerance limit for eligibility errors in the
Medicaid Eligibility Quality Control Program) and 45 CFR § 205.42 (1980) (an outdated regulation that established
a 4-percent tolerance limit for payment errors in the Aid to Families with Dependent Children program).
                                                           11
policy in such circumstances is to seek recovery only for the overpayments identified and not to
extrapolate the results. The State agency said that the other claim was missing a timesheet and
that there was no evidence that services were not provided. The State agency said that the
timesheet was most likely misplaced.

The State agency’s comments are included in their entirety as Appendix E.

Office of Inspector General Response

The deficiencies cited in the report, i.e., supervisory visits, CPR and first aid certification, annual
training, tuberculosis testing, supervisory visits, unsupported units of payment, and physician
authorization, are based on significant service-related requirements. Taken as a whole, these
deficiencies are too numerous to be dismissed as just a few missing files, particularly when the
deficiencies in question are related to quality of care.

We disagree that the documentation requirements in question for three of the six categories the
State agency mentioned were not Federal requirements. To provide a valid and payable service,
personal care services must meet Federal requirements in section 1905(a)(24)(B) of the Act and
implementing regulations at 42 CFR § 440.167, which require personal care services to be
provided by a qualified individual. To be qualified in New Mexico, an attendant must meet the
NMAC requirements related to the attendant qualifications discussed above. Therefore, an
attendant who does not meet the NMAC attendant qualification requirements cannot provide
valid personal care services as defined by Federal statutes and regulations. We based other
determinations of deficiencies on regulatory requirements that are integral to the definition of
personal care services and that must be met for the services to be payable as medical assistance.

We disagree with the State agency regarding the missing documentation of supervisory visits.
The State requires that personal care services agencies enter into a contract to provide the
services listed under NMAC 8.315.4.11. This regulation is a key provision governing how the
State provides personal care services under its State plan. The regulation contains a broad array
of requirements that specifically control the delivery of the personal care services benefit;
supervisory visits are one of those requirements. Without evidence of the required supervisory
visits, Coordinated did not satisfy the terms of its contract. Thus, we have retained the
deficiencies for missing documentation of supervisory visits.

The methodology we used to select the sample and evaluate the results of that sample has
resulted in an unbiased estimate (extrapolation) of the value of Coordinated’s unallowable
personal care services. As stated in New York State Department of Social Services, DAB 1358
(1992), “… sampling (and extrapolation from a sample) done in accordance with scientifically
accepted rules and conventions has a high degree of probability of being close to the finding
which would have resulted from individual consideration of numerous cost items and, indeed,
may be even more accurate, since clerical and other errors can reduce the accuracy of a 100%
review.”

The Coordinated sample was selected according to principles of probability (every sampling unit
has a known, nonzero chance of selection). In Sample Design in Business Research,
W. Edwards Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or

                                                  12
nearly so and if we can compute its margin of sampling error for a given probability.” We
explain the validity of the use of sampling and extrapolation as part of audits in connection with
Federal health programs and the courts’ approval of the use of those methods on page 10.

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs,
operations, grantees, and contractors. Therefore, the payment error tolerance limits that the State
agency cited for the Medicaid Eligibility Quality Control program and the Aid to Families With
Dependent Children program do not apply to our audits.

The State agency did not provide any additional information that would lead us to change our
findings or recommendations.

                                       OTHER MATTER

MEAL PREPARATION AND HOUSEKEEPING SERVICES PAID FOR RECIPIENTS
LIVING WITH ATTENDANTS

In reviewing supporting documentation for 30 of the 100 sampled items, we found that $1,829
was charged for time that the attendants billed for meal preparation and housekeeping services
even though the attendants and recipients lived in the same home. The State agency paid a
standard rate for each unit of time charged for attendant care regardless of whether the attendant
and recipient lived in the same home. During the scope of this audit, there were no Federal or
State regulations addressing payment for services provided by an attendant who lives with the
recipient.

The State has since amended its regulations (NMAC sections 8.315.4.16 and 17) to exclude
services covered under the New Mexico personal care services program that are a normal
division of household chores provided by a personal care attendant who resides with the
beneficiary.




                                                13
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of personal care services claim lines submitted by Coordinated Home
Health (Coordinated) for Federal Medicaid reimbursement by New Mexico for the 2-year period
October 1, 2006, through September 30, 2008. A claim line represented unit(s) of service paid
(0.25 hour equaled one unit of service).

SAMPLING FRAME

The sampling frame consisted of 277,724 personal care services claim lines (totaling
$37,676,105) for the period October 1, 2006, through September 30, 2008.

SAMPLE UNIT

The sample unit was a personal care services claim line for which New Mexico reimbursed
Coordinated.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 277,724. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to estimate
the total value of overpayments.
           APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                  Sample Results

                                                                    Value of
            Value of                    Value of       No. of      Claim Lines
Sampling     Frame                       Sample     Claim Lines       With
 Frame      (Federal      Sample        (Federal       With        Deficiencies
  Size       Share)        Size          Share)     Deficiencies (Federal Share)

277,724    $26,931,344      100          $10,773         46           $5,536



                       Estimated Value of Overpayments
           (Limits Calculated for a 90-Percent Confidence Interval)
                                (Federal Share)

                       Point estimate              $15,374,578
                       Lower limit                 $10,962,174
                       Upper limit                 $19,786,983
                                                                                                Page 1 of 2


                    APPENDIX C: REASONS FOR DEFICIENT CLAIM LINES

1     Missing Evidence of Cardiopulmonary Resuscitation and/or First Aid Certifications
2     Missing Evidence of Annual Training
3     Missing Evidence of Tuberculosis Testing
4     Missing Evidence of Supervisory Visits
5     Unsupported Units of Payment
6     Missing Evidence of Physician Authorization




                                                              No. of
     No.        1      2      3      4      5      6        Deficiencies         Sample Item No.1
      1                       X                                  1                      1
      2         X                                                1                      2
      3         X      X                                         2                      4
      4                X                                         1                      7
      5         X      X             X                           3                      8
      6         X                                                1                     10
      7         X                                                1                     16
      8                X                                         1                     18
      9         X                                                1                     20
     10                X                                         1                     21
     11         X             X                    X             3                     23
     12                X                                         1                     25
     13                X                                         1                     27
     14         X                                                1                     28
     15         X             X                                  2                     29
     16                X                                         1                     30
     17                X                                         1                     31
     18                              X                           1                     34
     19                X                                         1                     36
     20                       X      X                           2                     40
     21                              X                           1                     41
     22                X                                         1                     45
     23         X                                                1                     46
     24                              X                           1                     48
     25         X                                                1                     54
     26                                     X                    1                     56
     27                X                                         1                     58
     28         X                                                1                     59
     29                       X                                  1                     62

1
    We include the “Sample Item No.” column as a cross-reference to the specific sample item.
                                                                                      Page 2 of 2


                                                   No. of
  No.      1     2     3     4     5     6       Deficiencies      Sample Item No.1
  30                   X                               1                 63
  31             X                                     1                 65
  32             X                                     1                 66
  33       X                                           1                 76
  34             X     X                               2                 78
  35                               X                   1                 79
  36                   X                               1                 80
  37       X     X                                     2                 81
  38             X                                     1                 85
  39       X                                           1                 86
  40             X                                     1                 88
  41       X                                           1                 90
  42       X                 X                         2                 91
  43             X           X                         2                 94
  44       X           X     X                         3                 96
  45       X     X                                     2                 97
  46       X                                           1                 99
 Total     20    20    9     8     2     1            60

Total deficiencies for “Attendant Qualification Deficiencies” (columns 1 through 3) is 49.
The total for “Other Deficiencies” (columns 4 through 6) is 11.
                                                                                                   Page lofl8


                 APPENDIX D: COORDINATED COMMENTS



C;oordinated
( _Home Health                                                          _._ ___Carin.g Since 1984

                                          September 7, 2010



   VIA OVERNIGHT DELIVERY AND ELECTRONIC MAIL

   Ms. Patricia Wheeler 

   Regional Inspector General for Audit Services 

   Department of Health & Human Services 

   Office of Inspector General, Office of Audit Services, Region VI 

   1100 Commerce Street, Room 632 

   Dallas, TX 75242 


                  Re: Draft Report Number A-06-09-00064

   Dear Ms. Wheeler:

          Coordinated I·lome Health Care, Inc. ("Coordinated") appreciates being offered the
   opportunity to provide a written response to the draft audit report prepared by the Department of
   Health and l'!uman Services' Office of Inspector General ("OIG"), entitled Review of New
   Mexico Medicaid Personal Care Services Provided by Coordinated Home Health ("Draft
   Report") which examined services furnished under the New Mexico Personal Care Option
   Program ("PCO Program"). Our response is divided into four (4) sections. Specifically:

          • 	 Section I of this letter provides a brief overview of Coordinated and the quality
              services it has provided to individuals within New Mexico since 1984.

          • 	 Section II rebuts the individual issues that OlG addressed in the Draft Report by
              explaining how 010 may have misinterpreted the requirements imposed on PCO
              providers by the New Mexico Human Services Department ("HSD") and/or may not
              have reviewed the complete set of relevant documentation. There are 7 categories of
              issues addressed: (1) Tuberculosis ("TB") testing; (2) annual training; (3) CPR! first
              aid certification; (4) criminal background checks; (5) supervisory visits, (6) physician
              authorization, in-home assessment, and Personal Care Service Plans ("PCSP"); and
              (7) unsupported units claims.

          • 	 Section III sets forth the legal arguments to support our conclusion that many of the
              issues identified by 010 should not serve as a basis for recoupment of payment for
              claims submitted.

          • 	 Section IV describes how OIG's extrapolation from its sample to a global amount for
              the entire time period is otherwise flawed.


                       205 W. Boutz, Bldg 5" Las Cruces, NM 88005
                         575.523.8885 Office 575.524.9836 Fax
                             www.coordinatedhomeheahh.com
                                                                                            PAGE 2 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 2



I.     OVERVIEW OF COORDINATED

        Coordinated has been providing quality care to New Mexico residents since 1984.
Coordinated provides personal care needs to clients who are unable to perform activities of daily
living because of a disability or a functional limitation. The company currently serves
approximately 1,000 clients and provides jobs for 1,000 caregivers. The care provided allows
our clients to live in their homes and communities among family members and friends. The
delivery of care in the home setting allows our clients to avoid institutionalization, while
maintaining or increasing our clients' functional levels and independence. The services
Coordinated provides to our clients include bathing, dressing, grooming, eating, toileting, caring
for assistance animals, cognitive assistance and communicating. Many of these individuals have
no one else to help them.

       Over the last several months, Coordinated has experienced a number of changes that have
helped to enhance the company's policies and procedures. The first change experienced by
Coordinated was my appointment in January 2010 as Coordinated's new President. I have over
twenty years of executive experience in the health care industry, including 15 years in the New
Mexico home health sector. I have served as the president of the New Mexico Association for
Home and Hospice Care and will once again be serving in that position in 2012.

        Since my arrival at Coordinated, we have centralized a number of functions which I
strongly believe will help us achieve greater ongoing program compliance. For example,
Coordinated has:

       • 	 Centralized all recordkeeping with respect to caregiver and client files in the Las
           Cruces corporate office, namely for quality and control purposes. Files are no longer
           stored in individual regional offices. The Human Resources Manager is responsible
           for caregiver file maintenance and the Compliance Manager is responsible for client
           file maintenance. In order to ensure compliance with State and Federal regulations,
           internal audits of caregiver and client files are conducted by corporate personnel on
           an ongoing basis.

       • 	 Client authorizations are now centrally managed and tracked by the Authorization
           Coordinator in the corporate office. This ensures that the required care plan
           documentation for each client is in place prior to placing a caregiver in the client's
           home.

       • 	 In-home visits are now tracked on a weekly basis by the Compliance Manager. This
           ensures that clients who are hospitalized and/or out of town are tracked more closely,
           allowing the company to meet client needs while remaining compliant with State and
           Federal regulations.
                                                                                                             PAGE 3 OF 18 





Ms. Patricia Wheeler
September 7,2010
Page 3



       Additionally, the Allscripts® software system l is a fairly new addition to Coordinated, as
it was not fully implemented in all locations until the middle of 2008, subsequent to the audit
period. Prior to that time, the company relied on different software packages and manual
systems that were meant to track various items but which did not work congruently. Some of the
enhancements to systems and procedures resulting from the Allscripts® implementation are:

           • 	 Subsequent to receiving the findings in the OIG Draft Report, Coordinated modified
               its Allscipts® application to function as the primary tool to monitor compliance with
               PCO regulations, and the company no longer relies on manual controls enforced by
               branch managers at each location. The software will not allow caregivers to be
               scheduled for work unless all of the compliance fields reflect a current date. The
               compliance fields track TB testing, attendant training, CPR and first aid certifications,
               and criminal background checks. A caregiver who is denied for scheduling must take
               appropriate action to come into compliance with the required standard(s) before s/he
               will be scheduled for work. In addition, Coordinated continues to implement
               available Allscripts® functionality to further improve controls and compliance.

           • 	 Client schedules are prepared in Allscipts® based on the centrally managed
               authorizations. Hours that are not authorized cannot be scheduled, and thus cannot be
               worked or billed. Allscripts® regulates the time frame and the number of hours
               worked.

           • 	 The use of Allscripts® ensures accurate billing of personal care services, as
               caregiver's start and finish times from timecards are entered into Allscripts® and the
               software calculates the number of hours worked. As a result, Coordinated no longer
               relies upon manual calculation of caregiver hours.

           • 	 Allscripts® allows for Coordinated to automatically generate weekly exception
               reports for any scheduled shifts not supported by a timecard. This process better
               facilitates prompt submission of timecards and ensures that shifts are not billed to the
               New Mexico Medicaid payee until a corresponding timecard is received and on file.

       Coordinated is also evaluating software so that all caregiver and client records can be
scanned for electronic use and storage.

II.        COORDINATED'S RESPONSE TO ~IG's FINDINGS FOR THE SAMPLED CLAIMS

       OIG concluded in its Draft Report that only 41 of 100 sample claims for Medicaid
personal care services complied with certain State requirements and that there were potential
issues with 59 of the 100 sample claims. Set forth below is a discussion of each of the seven
categories of issues identified in the Draft Report, the reasons we believe that OIG


I     Allscripts® is an industry leading software system that performs billing, scheduling and administrative tasks.
      Allscripts® is designed to employ best practices for quality control and compliance.
                                                                                                   PAGE 4 OF 18 





Ms. Patricia Wheeler
September 7,2010
Page 4



misinterpreted certain State law requirements applicable to PCO providers, and how review of a
more complete set of relevant documentation confirms that the requirements were substantially
complied with for these claims.

         A. 	    TB Testing

       In its review of personal care service attendant qualifications, OIG audited records of
attendant TB testing, claiming that "NMAC section 8.315.4.11(A)(37) requires provider agencies
to ensure that their attendants obtain a TB skin test or chest x-ray upon initial employment and to
document the results of TB tests and x-rays in attendant files.,,2 Based upon this review, OIG
claimed that for 29 of the 100 sampled claims Coordinated could not provide evidence that the
attendants had received a TB skin test or chest x-ray or that the attendants had tested negative for
TB or been appropriately treated before the dates of service.

       However, as set forth in greater detail below, Coordinated received guidance from the
State dating back to 2004, stating that TB testing would no longer be required for health facility
workers as a condition of employment. Records maintained by Coordinated evidence that
management, at the time, reasonably relied upon these representations by New Mexico's
government officials in revising its company policy as to TB testing. Nonetheless, Coordinated
can provide documentation showing that the attendants who provided care for 99 out of the 100
sampled claims were TB negative on the sample dates of service.

                 1. 	    Ambiguity in the New Mexico Regulations pertaining to TB testing
                         coupled with communications from State officials led Coordinated to
                         understand that TB testing was no longer required for PCO
                         attendants.

        For purposes of background, there are several governmental agencies in New Mexico that
oversee portions of the PCO Program: the New Mexico Human Services Department (in which
New Mexico Medicaid is a division (specifically the Medical Assistance Division ("MAD")), the
Department of Health ("DOH") and the Aging and Long-Term Services Department. Although
the current HSD regulations may include a provision within the PCO Program regulations that
addresses TB testing of personal care attendants, DOH is the agency that has historically asserted
authority over TB testing of health facility employees (including PCO attendants). In fact, DOH
has a long record of overseeing TB control among health facility personnel. DOH's regulations
peliaining to "control of communicable disease in health facility personnel" date back at least to
December 1979, when the regulations were promulgated under HED 81-7. 3 The regulation in its
modem iteration was adopted into section 7.4.4 of the first version of the New Mexico
Administrative Code ("NMAC"), effective October 31, 1996. NMAC § 7.4.4 required that:

2    Department of Health and Human Services, Office of Inspector General, REVIEW OF NEW MEXICO MEDICAID
     PERSONAL CARE SERVICES PROVIDED BY COORDINATED HOME HEALTH No. A-06-09-00064, 4 (Draft, July 2010)
     (hereinafter "Draft Report").
 3   See N.M. ADMIN. CODE § 7.4.4 (2004) (repealed July 30, 2004); 7 N.M. Reg. 571 (Aug. 31, 1996) for the
     regulatory history ofNMAC § 7.4.4.
                                                                                                       PAGE 5 OF 18 





Ms. Patricia Wheeler
September 7,2010
PageS



                 A person on first employment in a New Mexico health facility and after
                 exposure to an active case of infectious tuberculosis, shall obtain and
                 retain a certificate stating that slhe is free from tuberculosis in a
                 transmissible form. An operator of a health facility shall also obtain such
                 certification. 4

Pursuant to the DOH regulation, an employee's health certificate was required to show the
results of an intradermal TB test or chest x_ray.s As chief enforcer of the DOH TB testing
requirement, the Public Health Division not only assessed health facility compliance with the
regulation but also made pre-employment testing available to individuals through local public
health offices.

       NMAC § 7.4.4 further specified that the DOH regulation governed all "people employed
or who are seeking employment or who volunteer in health facilities or child care centers in New
Mexico," and was promulgated "to ensure the health and safety of individuals by preventing
exposure to tuberculosis in a transmissible form while working, attending or otherwise being
located in a health facility or child care center.,,6 With a broad definition of "health facility," the
DOH regulation applied to providers of personal care services, such as Coordinated. Therefore,
from its inception in 1984, Coordinated followed DOH guidelines by requiring that all
caregivers, as a condition of employment:

                 Provide a copy of a valid TB test with negative results prior to being
                 scheduled for a client shift, and continue to update TB test or chest X-rays
                 as required. (Known reactors must present a copy of an x-ray with
                 negative results or certification that drug therapy has been completed, to
                 validate that the person is free from communicable disease. f

However, effective July 30, 2004, DOH repealed NMAC § 7.4.4, thereby ending its health
facility personnel TB testing requirement. Notice of the repeal was published twice in the New
Mexico Register, first in conjunction with notice of a June 28, 2004 public hearing on the repeal,
and then as final notice of the effective date of repeal. 8

      While DOH appears not to have publicly issued guidance on the effect of the repeal,
DOH did advise Coordinated and prospective employees following the repeal that TB testing of
employees was no longer required by the State. On multiple occasions, DOH officials provided
Coordinated employees with copies of a letter issued by Gloria Glasgow of the state of New
Mexico Public Education Department ("Glasgow Letter") stating that, "[aJs of July 30, 2004, TB


4   N.M. ADMfN. CODE § 7.4.4(8.1) (2004) (repealed July 30, 2004) (enclosed as Attachment 1). 

5   N.M. ADMIN. CODE § 7.4.4(8.7) (2004) (repealed July 30,2004). 

6   N.M. ADMfN. CODE §§ 7.4.4(2.1), (6) (2004) (repealed July 30, 2004). 

7   Coordinated Care Corp., Caregiver Conditions of Employment, in SUPPLEMENT TO EMPLOYEE HANDBOOK ­
    CAREGIVER, 2 (Rev. Aug. 20m) (enclosed as Attachment 2).
8   See 15 N.M. Reg. 335 (May 28, 2004) (enclosed as Attachment 3); 15 N.M. Reg. 765 (July 30, 2004) (enclosed
    as Attachment 4).
                                                                                                         PAGE 6 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 6



testing is no longer a state mandated requirement for employment in health facilities, schools and
day care centers.,,9 The letter is dated July 21, 2004 and although it contains no citation to the
provision that was repealed, the letter otherwise identifies NMAC § 7.4.4 as the applicable
regulation through reference to the June 28, 2004 public hearing and the following summary:
"[the repealed regulation] requires persons employed or who are seeking employment or who
volunteer in health facilities and day care centers to be tested and maintain certification that they
are free from Tuberculosis (TB) in a transmissible form." The letter justifies the repeal on the
basis of recommendations from the American Thoracic Society in conjunction with the CDC that
states discontinue mandated and mass pre-employment TB screening and require testing only of
individuals at high risk for TB. "Screening low-risk individuals" the letter states, "often results
in false positive tests and subsequent unnecessary treatment, diverting financial and human
resources from other priority activities."

        Coordinated has documentation that the Glasgow Letter was provided to Coordinated by
DOH on several occasions 10 and that State officials discussed with Coordinated the repeal of the
DOH TB testing mandate. ll Relying upon these communications and representations from DOH
that the agency had discontinued its employee TB testing mandate, Coordinated changed its
policy to no longer require TB testing of employees. Coordinated's decision is documented in an
October 1,2004 memo from Coordinated's former owner to all Coordinated supervisors. 12 The
memo discusses how Coordinated had received numerous copies of the Glasgow Letter from
caregivers who were provided the letter by DOH when the Department declined to administer a
TB test to the caregivers. The memo also alludes to Mrs. Roberts' communications with DOH in
stating that, "[w]e have been told this position is going to be uniform except for highly exposed
areas such as in-patient care." Mrs. Roberts' memo concludes: "Due to this, effective
immediately we are no longer going to require TB tests for our caregivers."

        HSD itself appears to have acted in reliance upon DOH's repeal of the health facility
testing requirement. Indeed, HSD deferred to DOH on matters of TB control well before the
repeal ofNMAC § 7.4.4. Almost from the outset of the PCO program, HSD synchronized its TB
testing requirements to conform with DOH regulations, as evidenced by this provision from the

9  Letter from Georgia Glasgow, Health and Nursing Services Consultant, New Mexico Public Education
   Department, School Health Unit, to Superintendents, Principals and School Nurses (July 21, 2004).
10 A copy of the letter appears to have been provided by the Hidalgo County Public Health Department to a
   prospective Coordinated employee on July 26, 2004 (four days prior to the official repeal of NMAC § 7.4.4),
   who then shared the letter with Coordinated (enclosed as Attachment 5). Further evidencing that prospective
   Coordinated employees were being given the letter in late July 2004 is a fax cover letter from a Coordinated
   employee to Coordinated's Quality Assurance Manager (enclosed as Attachment 6). See also, Attachments 7-8.
11 A copy of the Glasgow Letter received by Coordinated on July 26, 2004 (enclosed as Attachment 5) contains a
   handwritten note initialed by Lila Roberts (former owner of Coordinated) reflecting that she had a telephone
   conversation with Georgia Glasgow the signatory of the PED letter on July 28, 2004. In addition, Mrs. Roberts
   November 2004 calendar (enclosed as Attachment 9) reflects a November 23 appointment with Dr. Ron
   Voorhees (then Chief Medical Officer of DOH) "per TB new law" and a November 30 appointment with Steve
   Dossey (then Deputy Director of DOH's Division of Health Improvement) "re TB will e-m[aill or fax."
12 Memorandum from Mrs. Roberts to All Supervisors regarding TB tests (Oct. 1,2004) (enclosed as Attachment

    10).
                                                                                                 PAGE 7 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 7



2002 Medicaid Personal Care Service Standards ("Standards"): "[t]he Personal Care Attendant
must have a current tuberculosis (TB) skin test or chest x-ray upon initial employment with the
provider agency per the current standards ofthe Department of Health.,,13

       HSD modified its approach when it updated the PCO regulations in 2004 to incorporate
the Service Standards issued in 2002. 14 This time, instead of adopting DOH's TB testing
standard by reference, HSD inserted into its regulation language from DOH's ruleY At the
same time, the 2004 HSD regulation reinforced the nexus between HSD and DOH with regard to
attendant TB testing by providing that "TB testing must be conducted thereafter, pursuant to the
current standards of the department of health." 16 In addition, HSD did not define many of the
terms of art in its TB regulation (such as what the agency intends by "upon initial employment")
and also did not include certain details, such as the parameters for determining when a TB test is
negative (i.e. maximum size of induration). This further reinforces HSD's reliance upon DOH
for guidance and clarification.

        HSD finalized its amendments to the PCO regulations within a month of DOH repealing
its own rule; however, it is unlikely that HSD intended to break with DOH policy. The PCO
regulation amendments that included the TB provision were proposed by HSD prior to any
notice from DOH that it was considering repeal of its TB testing regulation. HSD published
notice of the proposed regulations in the Human Services Register on March 26, 2004 17 and in
the New Mexico Register on April 15, 2004. 18 By contrast, DOH did not publish notice of its
proposed repeal until May 28, 2004. 19 By May 28, 2004, HSD concluded its hearing on the
proposed PCO regulation changes and was about to publish notice of the final regulations. 2o
Given the timing of regulatory action by the two agencies, HSD likely had no knowledge of
DOH's intent to repeal the health facility personnel TB rule when it proceeded with adopting the
PCO regulation amendments that included a provision based upon DOH's TB standard then in
effect.

        While HSD's regulations have not evolved on pace with DOH, HSD's intent to adhere to
DOH standards is clear. Since the July 31, 2004 repeal by DOH, it appears to have been HSD
policy to not enforce the PCO TB rule, as no compliance guidance is readily available and HSD
appears to not have audited provider compliance with respect to TB testing. The most telling
indication of HSD's position with respect to TB testing is evidenced in its first update to the
PCO regulations since 2004. The 2010 changes to the PCO Program regulations include an
amendment that provides that PCO provider agency responsibilities include "following current

 13   State of New Mexico Human Services Department, Medical Assistance Division, MEDICAID PERSONAL CARE
      SERVICE STANDARDS, IV.B.7 (Mar. 15,2002).
 14   See 27 N.M. Hum. Servs. Reg. 12 (Mar. 26. 2004).
 15   See N.M. ADMIN. CODE § 8.315.4.1l(A)(37) (2004) ("upon initial employment"); N.M. ADMIN. CODE §
      7.4.4(8.1) (2004) ("on first employment").
 16   N.M. ADMIN. CODE § 8.315.4.1 I (A)(37) (2004).
 17   27 N.M. Hum. Servs. Reg. 12 (Mar. 26, 2004).
 18   15 N.M. Reg. 234-235 (Apr.15, 2004).
 19   15 N.M. Reg. 335 (May 28, 2004).
 20   See 27 N.M. Hum. Servs. Reg. 12 (June 9, 2004).
                                                                                                          PAGE 8 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 8



recommendations of the state department of health for preventing the transmission of
tuberculosis (TB) for attendants upon initial employment and as needed.,,21 This language
closely parallels HSD's earlier 2002 rule and confirms that HSD continues to view DOH as the
appropriate agency to set TB testing standards. Additionally, while the main purpose of the
recently finalized PCO regulation amendments was to clarify the role of the Third Party Assessor
("TPA") and how the Personal Care Option fits into the CoLTS program, HSD appears to have
also used the opportunity to "catch up" and update its regulations to conform with what has been
department practice since July 30, 2004. HSD said as much in the preamble to the final
regulations: "[i]n addition, the entire rule was updated to include program policy changes since
the PCO regulations were last filed in 2004." 22

        HSD's actions subsequent to the July 30, 2004 DOH repeal may reflect an
acknowledgement that it is not clear that MAD has authority to independently mandate TB
testing ofPCO attendants. The New Mexico statutes delegating authority to the Human Services
Department confer "such powers as may be necessary or appropriate for the exercise of the
powers specifically conferred upon it in Chapter 27 NMSA 1978 [relating to public
assistance].,,23 The public assistance chapter of the statutes also charges HSD with certain
activities, including "the administration of all the welfare activities of the state as provided in
[this chapter], except as otherwise provided for by law.,,24 Notably, the public assistance chapter
of the statutes does not specifically confer upon HSD the authority to prevent the transmission of
tuberculosis by Medicaid providers. 25 Rather, it is DOH in which control of communicable
diseases has been vested. The New Mexico Public Health Act bestows upon DOH the authority
to "maintain and enforce rules for the control of communicable diseases deemed to be dangerous
to public health.,,26 Moreover, the New Mexico legislature explicitly has assigned responsibility
to DOH to determine the communicable disease(s) for which health facility employees must
obtain a certification that the employee is free from said diseases in a transmissible form.27

       Based upon the foregoing, we believe that it is unwarranted for OIG to conclude that
HSD failed to ensure Coordinated's compliance with State TB testing requirements. Given the
ambiguity in New Mexico regulations and the communications received from State officials,
Coordinated acted in good faith in revising its policy to not require TB testing during the OIG
audit period.



21   33 N.M. Hum. Servs. Reg. 28 (Aug. 13, 2010) (to be codified at N.M. ADMIN. CODE § 8.315.4.1I(B)(31)
     (effective Sept. 15,2010). Elsewhere, when defining the responsibilities of consumer-delegated PCO attendants
     the 20 I 0 amendments require that attendants follow current recommendations of the CDC for preventing the
     transmission ofTB (N.M. ADMIN. CODE § 8.315.4.1 I (D)(lO) (Sept. 15,2010). This rule is not inconsistent with
     the agency responsibilities as neither DOH and CDC presently require mass pre-employment TB testing.
22   See 33 N.M. Hum. Servs. Reg. 28 (Aug. 13,2010).
23   N.M. STAT. § 27-1-2(B)(7) (emphasis added).
24   N.M. STAT. § 27-1-3 (emphasis added).
25   SeeN.M.STAT. § 27-2-12,27-1 1-3.
26   N.M. STAT. § 24-1-3.
27   SeeN.M. STAT. § 21-1-12 (enacted 1973, iast amended 1981).
                                                                                                                 PAGE 9 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 9



                   2. 	     Coordinated has documentation that 99 out of 100 sampled attendants
                            were tested negative for TB.

       Even though Coordinated maintains that OIG was substantively wrong to conclude that
TB testing is required for PCO attendants in New Mexico, Coordinated is able to demonstrate
that 99 of the 100 sampled claims were in substantial compliance with NMAC
8.315.4.1 1(A)(37).

        The ambiguity inherent in the HSD TB regulation has proven frustrating in establishing
provider policies and procedures,28 and as such, Coordinated looked to the CDC for direction on
classifying the TB skin test results. The CDC has issued guidance on interpreting tuberculin skin
test results which indicates that a TB test is negative where the test results in an induration of 15
mm or less.29 As the CDC does not recommend TB testing programs for persons not at high risk
for TB, the CDC offers no recommendation for the time frame by which an employee should be
screened for TB. Nonetheless, it is Coordinated's position that a reasonable interpretation of the
HSD TB regulation language "current ...upon initial employment" allows for a TB test to have
been administered up to one year prior to the date of employment with Coordinated.

        Based upon the above criteria, Coordinated can provide documentation that attendants
tested negative for TB prior to the dates of service for 84 of the sample claims. In addition,
Coordinated is able to provide documentation that attendants tested negative for TB subsequent
to the dates of service for an additional 15 of the sample claims. Coordinated asserts that credit
should be given for documentation of TB testing subsequent to the sample dates of service,
because such tests confirm that the employee was in fact free from transmissible TB on the dates
of service. Furthermore, the PCO regulation makes clear that an employee is prohibited from
providing services only if the attendant tests positive for TB; a negative test administered
subsequent to the sample dates of service proves this was not the case.

          B. 	     Annual Training

        OIG also has claimed that for 25 of the 100 sampled claims "Coordinated could not
provide evidence that the attendants had completed 12 hours of annual training for the calendar
year of the dates of service.,,3o However, we believe that OIG measured Coordinated's
compliance with the attendant annual training requirement on the basis of an inaccurate
interpretation of the regulations, thereby discrediting certain evidence of training.


28   As mentioned above, HSD never clarified what it means to obtain a "current" TB skin test or chest x-ray or the
     timeframe encompassed by the phrase "upon initial employment." The HSD regulation also does not specify the
     threshold induration size resulting from the TB test skin that requires a chest x-ray or other follow up in order to
     confinn that the individual is free from transmissible TB.
29   See Centers for Disease Control and Prevention, Fact Sheet: Targeted Tuberculin Testing and interpreting
     Tuberculin Skin Test Results (May 2005),
      http://www.cdc.gov/tb/publications/factsheets/testing!skintestresults.pdf.

30   Draft Report at 5.
                                                                                                           PAGE 10 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 10



        First, OIG improperly applied a "calendar" year standard in its review of the annual
training requirement. New Mexico PCO regulations do not specify which 12-month period
constitutes a "year" for the purpose of the annual training requirement. The pertinent regulation
requITes that attendants receive a certain amount of training "per year," but the term "year" is not
otherwise defined. Consequently, providers should have the flexibility to determine which fixed
twelve-month period is utilized to tabulate training hours, so long as it is applied consistently.3l
Coordinated monitors annual training compliance on the basis of an attendant's employment
anniversary year, and OIG should have used the same basis in auditing Coordinated's annual
training records.

        Second, in connection with its exit interview with OIG following completion of OIG's
audit, Coordinated was led to believe that OIG did not provide credit for the hours attendants
spent in CPR and first aid certification courses. However, by its terms, the governing regulation
reflects an intention that time spent in CPR and first aid instruction count toward the required
hours of training in the year certification is renewed (certification is valid for two years). New
Mexico PCO regulations unambiguously state that "attendants must receive a minimum of 12
hours training per year, which must include CPR and first aid.,,32

        Third, in at least one instance OIG appears to have disallowed a claim on the basis that
the attendant's annual training records did not include evidence of "a test." The only attendant
testing required in the context of the PCO program is the competency test administered in
conjunction with initial attendant training. 33 Attendant testing is not a requirement of annual
training and OIG was erroneous to view it as such.

        Measured in accordance with the criteria discussed above, Coordinated can document
substantial compliance with the annual training requirements for all 100 sampled claims.
Specifically, out of the 25 claims OIG cited for deficiencies in annual training, Coordinated can
provide evidence that the attendant( s) providing care with respect to the sample claim had the
following hours of annual training: 15 claims with 12 or more hours; 9 claims with 10 - 11
hours; and one claim with 9 hours. We believe that a shortage of I to 3 hours of training for no
more than 10% of sampled caregivers is an insufficient basis for concluding that Coordinated is
not in compliance with State requirements, as it is clear that Coordinated has adequate controls in
place and ensured the training requirements were complied with for the overwhelming majority
of these claims.




31   Allowing use of an attendant's employment anniversary year or a calendar year, at the provider's option, is,
     moreover, consistent with DOH regulations applicable to determining compliance with personal care attendant
     training hours for licensed home health agencies. See N.M. ADMIN. CODE § 7.28.2.31(C) (referring to attendant's
     first year of employment).
32   N.M. ADMIN. CODE § 8.315.4.11 (A)(33) (2004) (emphasis added).
33   N.M. ADMIN. CODE §§ 8.315.4.1 1(A)(2), (38) (2004).
                                                                                           PAGE 11 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 11



          C.       CPR! First Aid Certification

       OIG claimed that for 22 of the 100 sampled claims "Coordinated could not provide
evidence that the attendant was certified in CPR and/or first aid on the dates of service. ,,34

       Coordinated can provide documentation of substantial compliance with the CPR/first aid
training requirement for 97 out of the 100 sampled claims. Specifically, documentation
evidences that the attendant was certified in CPR and/or first aid on the dates of service for 93 of
the 100 sampled claims. Additionally, Coordinated can provide documentation demonstrating
that for an additional 4 claims the attendant was out of compliance with the CPR/first aid training
requirement for a period of time that was less than three months: for one claim the attendant's
certification was renewed within 90 days of the previous certification's expiration, and for 3
claims the attendant obtained the required certification within the first six months of
employment, less than three months out from the required time frame. Coordinated believes that
a lapse in compliance of three months or less constitutes substantial compliance because the PCO
regulations allow newly hired attendants a ninety day grace period during which time they may
work without current CPR/first aid certification.

      Coordinated further notes that for the 3 claims that may not substantially comply with this
requirement, the absence of documented certification more likely reflects a recordkeeping error
on Coordinated's part and not that the attendant was without the required lifesaving skills on the
sample claim dates of service.

         *D.       Criminal Background Checks




34   Draft Report at 5.


 * Office of Inspector General note: This section is not applicable because the finding to which Coordinated
 referred is not included in this report. As a result, we redacted Coordinated's comments on this finding.
                                                                                    PAGE 12 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 12




       E.     Supervisory Visits

      With respect to supervisory visits, OIG's Draft Report concluded that for 9 of the 100
sampled claims, "Coordinated could not provide evidence that the attendants' supervisors had
                                                                                         PAGE 13 OF 18 





Ms. Patricia Wheeler
September 7,2010
Page 13



made the required visits.'.4Q However, Coordinated can document substantial compliance with
the supervisory visit requirement for 94 of the 100 sampled claims. Coordinated has
documentation of a supervisory visit during the month of the sample claim for 92 of the sampled
claims. For one additional claim, documentation reflects that multiple attempts at a supervisory
visit were made during the month of the sample claim. For another sample claim, Coordinated
can verifY documentation that 12 supervisory visits were performed during the year of the
sample claim even though a visit was not conducted during the month in which the sample claim
services were provided. Under these circumstances it is clear that Coordinated substantially
complied with the supervisory visit requirement.

         F. 	    Physician Authorization, In-Home Assessment, and Personal Care Services
                 Plan

       OIG's Draft Report claimed that for 2 of the 100 sampled claims, "there was no evidence
of a physician authorization form for the personal care services. In addition, one of the two
claims did not have evidence of an in-home assessment and a PCSp.',4I

         OIG erred in citing Coordinated for any deficiencies relating to documentation of
physician authorization forms or in-home assessments, as the TPA is obliged to retain these
documents, not PCO provider agencies. OIG even stated in its Draft Report that "NMAC
requires third-party assessors or their designees to maintain for each recipient evidence of (1) a
physician authorization form signed by a physician, physician assistant, nurse practitioner, or
clinical nurse specialist (section 8.315.4.16A); (2) an in-home recipient assessment (section
8.3 I 5.4.1 6B(l)(a)); and (3) a PCSP (section 8.315.4.l6B)." Yet OIG went on to cite
Coordinated, not the TPA, for inadequate documentation of a physician authorization form, in­
home assessment and/or PCSP. The PCO regulations require the TPA to develop and approve a
level of care packet which must include a current physician authorization form (the MAD 075),
and it is the TP A that utilizes the physician authorization form to make consumer level of care
determinations. 42 Similarly, the PCO regulations require the TPA to conduct the in-home
assessments. 43 Nowhere do the PCO regulations explicitly require agencies to obtain and
maintain copies of the physician authorization form or in-home assessment from the TP A. In
fact, the TPA is expressly precluded by regulation from contracting with a PCO provider agency
to carry out the TPA's responsibilities related to in-home assessment and obtaining appropriate
documentation of physician authorization. 44 The PCO regulations require only that PCO
provider agencies obtain an approved PCSP 45

      Coordinated can provide PSCPs covering the service dates for 100 out of 100 of the
sampled claims.

40   Draft Report at 5. 

41   Draft Report at 6. 

42   See N.M. ADMIN. CODE § 8.315.4.l6(A) (2004). 

43   See N.M. ADMIN. CODE § 8.315.4.16(B)(1)(2004). 

44   See N.M. ADMIN. CODE § 8.315.4.16 (2004). 

45   SeeN.M.ADMIN.CODE § 8.315.4.J6(B)(2)(a) (2004). 

                                                                                                             PAGE 14 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 14



          G. 	     Unsupported Units Claims

        OlG stated that for 2 of the 100 sampled claims, "Coordinated did not have evidence to
support the amount of units claimed for attendant services. Specifically, for one claim, there was
no timesheet; for the second claim, the number of units on the timesheet was less than the
number of units claimed. ,,46 Coordinated has determined that a simple math error accounts for
the discrepancy between the units reflected on the timesheet and the units claimed. The time in
and time out was accurately captured on the timesheet but the time was inaccurately totaled. The
result is a 0.5 hour overpayment, which Coordinated will repay in addition to repaying the
amount corresponding to the claim for which there was no record.

III. 	    IMPERFECT COMPLIANCE WITH NEW MEXICO MEDICAID PCO PROVIDER
          PARTICIPATION REQUIREMENTS Is NOT A VALID BASIS FOR RECOUPMENT OF
          PAYMENT FOR CLAIMS SUBMITTED DURING TIlE PERIOD OF NONCOMPLIANCE

        OlG asserted in its Draft Report that HSD did not always ensure that Coordinated's
claims for Medicaid personal care services complied with certain Federal and State requirements
and, "[a]s a result, Coordinated received unallowable reimbursement" for certain personal care
service claims. 47 OIG continued that, per the Office of Management and Budget, "to be
allowable, costs must be authorized or not prohibited by State or local laws or regulations.,,48 In
order to determine whether any unauthorized or prohibited payments were made to Coordinated
for services provided under the PCO program, OlG audited Coordinated's compliance with
section 8.315.4 ofthe New Mexico Administrative Code. Yet, New Mexico law does not require
compliance with NMAC § 8.315.4 as a condition of payment for personal care services. Rather,
section 8.315.4 of the New Mexico Administrative Code details the conditions for provider
participation in the PCO program.

       Stated more simply, OlG has confused NMAC § 8.315.4 for conditions of payment,
when in fact these regulations reflect conditions of participation. 49 Conditions of participation
are "quality of care standards directed towards an entity's continued ability to participate in the
[govermnent] program," whereas conditions of payment render the provider ineligible to receive
payment of its claims during any period of noncompliance. 50




46   Draft Report at 6.
47   Draft report at 4.
48   Draft report at 1, citing Office of Mgmt. and Budget, Circular A-87: Cost Principles for State, Local and Indian
     Tribal Governments, Appendix A § C.l.c, 70 Fed. Reg. 51912 (Aug. 31, 2005).
49   While '"'Conditions of Participation" is a term of art specific to the Medicare program, the concept can fairly be
     applied 	 within the Medicaid context, as state Medicaid programs also establish requirements for provider
     participation. In New Mexico, the general Medicaid conditions of provider participation are found at N.M.
     ADMIN. CODE § 8.302.1, while those specifically relating to the PCO Program are detailed at N.M. ADMIN. CODE
     § 8.315.4.
50   U.S. ex rei. Landers v. Baptist Mem. Health Care Corp., 525 F.Supp.2d 972, 978-979 (W.D. Tenn. 2007).
                                                                                                          PAGE 15 OF 18 





Ms. Patricia. Wheeler
September 7, 2010
Page 15



        The Tenth Circuit has emphasized that care must be exercised to accurately distinguish
between conditions of program participation and conditions of payment because the distinction is
central to determining whether repayment can be demanded as a result of noncompliance:

        Conditions of participation, as well as a provider's certification that it has
        complied with those conditions, are enforced through administrative mechanisms,
        and the ultimate sanction for violation of such conditions is removal from the
        government program. Conditions of payment are those which, if the government
        knew they were not being followed, might cause it to actually refuse payment. 51

        The regulations promulgated by HSD to govern the Medicaid program do not state that
compliance with NMAC § 8.315.4 or other provider participation requirements are a prerequisite
to payment. 52 Nor are the PCO regulations "so integral to the government's payment decision"
as to render them de facto conditions of payment. 53 Therefore, OIG's recommendation for
recoupment on the basis of imperfect PCO Program compliance undermines HSD's own
administrative scheme for ensuring that Medicaid providers remain in compliance with the
participation requirements and for bringing agencies back into compliance when they fall short
of what the regulations require. 54

        HSD has developed a detailed system for policing Medicaid provider participation that
does not include recoupment of payments as an enforcement tool. 5 HSD conducts periodic
reviews to "assess operation of the PCO program and to ensure all program requirements are met
related to all applicable state and federal laws and regulations.,,5 Following the on-site PCO
review, providers are given the opportunity to develop a Corrective Action Plan and may address
the deficiencies cited by HSD in its review findings. HSD can accept the provider's Corrective
Action Plan, require additional corrective actions, or move to impose administrative sanctions
against providers who "fail [s1 to correct deficiencies in provider operations within time limits
specified by HSD or its designee after receiving written notice of these deficiencies.,,57 HSD
imposes administrative sanctions pursuant to NMAC § 8.351.2. The types of sanctions available
to HSD are: prior approval, education, closed-end agreement, suspension of participation,
termination of participation, civil monetary penalties, or reduction of payments due. 58 These
regulations also provide criteria by which HSD is to determine the type of sanction to impose,
which include: seriousness of the violation(s), number and nature of the violation(s), history of




51 U.S. ex rei. Conner v. Salina Reg' I Health Ctr. Inc., 543 F.3d 1211,1220 (lOth. Cir. 2008) (citations omitted). 

52 See N.M. ADMIN. CODE §§ 8.300.1 - 8.354.2. 

53 See Conner, 543 F.3d at 1222 (internal quotations omitted). 

54 See Conner, 543 F.3d at 1220. 

55 See N.M. ADMIN. CODE § 8.351.2 (2004). 

56 See New Mexico Aging & Long-Term Services Department, Report to Coordinated Home Health Care Inc. 

   regarding Personal Care Option Audit/or Compliance (July 1,2009) (on file with the author). 

57 See N.M. ADMIN. CODE § 8.351.2 (2004). 

" See N.M. ADMIN. CODE § 8.351.2.11 (2004). 

                                                                                         PAGE 16 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 16



prior violation(s) or prior sanction(s), nature and degree of adverse impact of the sanction upon
Medicaid recipients, and mitigating circumstances. 59

       HSD's rubric for pca provider oversight demonstrates that it has adequate safeguards to
ensure provider compliance with the pca Program regulations, and it is preferable to rely on the
experience of this State agency to survey compliance. Furthermore, echoing the Tenth Circuit's
conclusion in Conner, the fact that HSD has established a detailed administrative mechanism for
managing pca Program participation confirms that although HSD considers substantial
compliance a condition of ongoing Medicaid participation, it does not require perfect compliance
as an absolute condition of receiving or retaining Medicaid payments for services rendered. 6o

        In the Draft Report, OIG identified no authority for recommending retroactive recovery
of Medicaid payments for services actually rendered on the basis of noncompliance with the
pca Program participation requirements. Nowhere within HSD's general Medicaid or pca
Program participation requirements, billing requirements, or administrative sanctions and
remedies regulations does HSD indicate that it can or will recoup payments from providers for
deficiencies in complying with pca provider participation requirements. G]            The only
authorization for recoupment in the pca regulations is "when audits show inappropriate billing
for services. ,,62 The Medicaid general provider policies similarly authorize recoupment for just
one occasion, where "[s]ervices billed to MAD [are] not substantiated in the eligible recipient's
records. ,,63 Additionally, the Medicaid sanctions and remedies regulations specifically enable
HSD to invoke the recoupment process only for the recovery of overpayments, defined as
"amounts paid to Medicaid providers in excess of the Medicaid allowable amount.,,64 These
regulations indicate that recoupment is to be employed by HSD to redress service-based
deficiencies not participatory-based deficiencies. Furthermore, a new provision included in the
pca regulations effective September 15, 2010, states, "[a]n agency that is non-compliant with
provider requirements or Medicaid or program policies or procedures may be placed on
moratorium by Medicaid or its designee until the pca agency has demonstrated, to the
satisfaction of Medicaid or its designee, full compliance with all requirements of policies and
procedures. ,,65 HSD took the opportunity in the pca regulation amendments to clarify its
enforcement authority with respect to provider requirements and yet included no discussion of
recoupment of payments. It is therefore clear that HSD does not intend for provider participation
deficiencies to constitute a valid basis upon which to pursue repayment of Medicaid claims.
Nor does the New Mexico legislature confer upon HSD the authority to recoup funds in the event




59    SeeN.M. ADMIN. CODE § 8.351.2.12(C) (2004). 

60    See Conner, 543 F.3d at 1221. 

61    See N.M. ADMIN. CODE §§ 8.302.1; 8.315.4; 8.302.2; 8.351.2. 

62    SeeN.M. ADMIN. CODE § 8.315.4.II(A)(14)(2004). 

 63   See N.M. ADMIN. CODE § 8.302.1.17 (2008). 

 64   SeeN.M. ADMIN. CODE § 8.351.2.13 (2004). 

 65   See N.M. ADMIN. CODE § 8.315.4.25(B)(Sept. 15,2010). 

                                                                                                      PAGE 17 OF 18 





Ms. Patricia Wheeler
September 7,2010
Page 17



a Medicaid provider breaches any duty specified in its provider agreement, including complying
with the PCO regulations. 66

        Therefore, OIG's conclusion that recoupment is recommended is inconsistent with both
federal case law and New Mexico provider participation enforcement standards.

IV.        RESPONSE TO     OIG's SAMPLE DESIGN AND METHODOLOGY

        Extrapolation ofOIG's audit findings for the 100 sampled claim lines to the population of
all 277,724 personal care claim lines submitted by Coordinated to Medicaid for the period of
October 1, 2006 to September 30, 2008 is inconsistent with New Mexico auditing standards.
Specifically, New Mexico's Medicaid program has a long history of not extrapolating the
findings of audits that it conducts to a larger universe of claims. Instead, the State Medicaid
program has had a policy of only recouping claims on a line-by-line basis. As such, OIG's
extrapolation is in conflict with the mamler with which New Mexico Medicaid conducts these
types of audits.

        Coordinated also calls attention to an error in the sample claim data supplied to
Coordinated by OIG. Our review of this data identified a decimal point error in the
"LINE_PC_UNITS" for at least 27 of the sampled claims. For example, the units corresponding
to claim 31 should be 68 not 6.8. Therefore, in addition to our position that almost none of these
claims were improperly submitted, even if an extrapolation were to be conducted, these decimal
point errors call into question the accuracy of the data from which OIG drew its sample and to
which it extrapolated its findings. Coordinated believes this type of error is something that
should have been caught by OIG during its data validation process and, therefore, urges OIG to
confirm that it has accurate data before issuing its report in final.

V.          CONCLUSION

        For the reasons articulated above, Coordinated disagrees with OIG's findings that 59 of
the sampled claims were deficient and that all of these deficiencies should result in a demand for
repayment. Coordinated contends that 90 of the 100 sampled claims are substantially compliant
with the New Mexico PCO Program requirements audited by OIG. Coordinated agrees with
OIG's findings for 8 out of 100 sampled claims to the extent that deficiencies exist, but disagrees
with OIG's recommendation that recoupment should result because simply failing to satisfy one
of the conditions of participation is not a basis upon which the claims should be denied. Finally,
Coordinated agrees with OIG's findings for 2 out of 100 sampled claims and will make a
repayment corresponding to the unsupported units for these two claims. However, Coordinated
notes its strong disagreement with extrapolation of these unsupported units to the universe of
personal care claims.



66 	   See N.M. STAT. § 27-11-3; New Mexico Human Services Department Medial Assistance Division, PROVIDER 

       PARTICIPATION AGREEMENT MAD 335 (Rev. 9/9/03). 

                                                                                       PAGE 18 OF 18 





Ms. Patricia Wheeler
September 7, 2010
Page 18



        While Coordinated agrees with ~IG's finding of deficiencies with respect to ten total
claims, Coordinated would like to highlight that when the deficiencies that correspond to these
ten claims are categorized by type of deficiency, the deficiency rate is 6% or less in each
category:


                                     Number of Claims
              Category                                            N umber of deficiencies
                                   Substantially Compliant
    TB Testing                           99 out of 100                       1
    Annual Training                     100 out of 100                       0
    CPRiFirst Aid Certification            97 out of 100                     3
    Criminal History Screening             99 out of 100                     1
    Supervisory Visits                     94 out of 100                     6
    Physician authorization, in-
                                        100 out of 100                       0
    home assessment, PCSP

       Therefore, we believe ~IG's findings do not suggest any systemic problems or a lack of
adequate controls to ensure compliance with State and Federal requirements.

                                       *         *         *
       Again, Coordinated appreciates this opportunity to comment on the Draft Report. Should
any additional information be required or further discussion needed regarding the Draft Report,
please contact me at (575) 523-8885.

                                                     Sincerely,

                                                     Is


                                                     Judy M. Sanchez
                                                     President

Attachments
                                                                                                   Page 1 of 20


APPENDIX E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS



             New Mexico Human Services De artment
                                                                       Medical Assistance Division
                                                                                      PO Box 2348
 Susana Martinez, Governor                                               Santa Fe, NM 87504-2348
 Sidonie Squier, Secretary
                                                        Phone: (505) 827-3103; Fax: (505) 827-3185


     June 18, 2012

     Ms. Patricia Wheeler 

     Regional Inspector General for Audit Services 

     U.S. Department of Health and Human Services 

     Office of the Inspector General 

     Office of Audit Services, Region VI 

     1100 Commerce Street, Room 632 

     Dallas, TX 75242 



     Re: 	    New Mexico Response - Medicaid Personal Care Services Provided by Coordinated
              Home Health


     Dear Ms. Wheeler:

     Enclosed are the New Mexico Human Services Department Medical Assistance Division' s
     comments on the Department of Health and Human Services Office of Inspector General's draft
     audit report A-06-09-00064 titled "Review of New Mexico Medicaid Personal Care Services
     Provided by Coordinated Home Health."

     Thank you for the opportunity to comment. If you should have any questions, please contact
     Crystal Hodges, Acting Chief of the CoLTS Bureau at (505) 476-7260 or by .-mail at
     CrystalA.Hodges@state.nm.us.



  ~SinCerelY'         .~     11 ~ 6. tJ .
     ~rg,              Director
     Medical Assistance Division 

                                              ~
     New Mexico Human Services Department 


     Enclosure

     Cc: 	    Sidonie Squier, HSD Secretary 

              Brent Earnest, HSD Deputy Secretary 

              Paula McGee, HSDIMAD Healthcare Operations Manager 

                                                                                                                                                      Page 2 of 20




                                                            New Mexico Human Services Department (HSD)
                                                                                     Medical Assistance Division (MAD)




New Mexico Human Services Department Medical Assistance Division
Comments on the Department of Health and Human Services Office of Inspector General
Draft Audit Report A-06-09-00064 on Medicaid Personal Care Services, Coordinated Home Health

                                                         TABLE OF CONTENTS

A.     Introduction ............................. ... ........ ...... .. ....... .................. ............................................... 1 


B.     Summary of Response ................. ................................................ ... ..... .......... .. ...... .......... ... 1 


C.     Background ... ............ ..... ..... ........ .... ............ ........ .... ............................................................ 2 


D.     Alleged Coordinated Deficiencies .......... ............... ... ... .................................... ... .......... ... .... 3 


       1.          Missing CPR or First Aid Certification ................... ..... ............................................. 4 


       2.          Missing Annual Training Documentation ............................... ... .................. ....... ... . 4 


       3.          Missing Tuberculosis Testing Documentation ............. .... ................................... .. .. 5 


       4.          Missing Documentation of Supervisory Visits ................................... .............. ... .. .. 5 


       5.          Unsupported Units of Payment ........................ ........ ........ .................... .................. 6 


       6.         M issing Physician Authorization ..... ..................................... .. ... .............................. 6 


       7.         Other PCO Matters ........................................ .......... ...... ............ ...... ......... .............. 7 


E.     State Policy Changes and Compliance Measures .. ............... ... ............... .. .......................... 7 


F.     Response to Proposed Overpayment Recovery ...... ................................ ...... ..... .............. .. g 


G.     Conclusion ........................................................... ........................................ .. ... ................... 9 

                                                                                                              Page 3 of 20




A.      Introduction

In April 2012, the Department of Health and Human Services ("HHS") Office of Inspector General (HOIG")
issued a draft report entitled "Review of New Mexico Medicaid Personal Care Services Provided by
Coordinated Home Health," which covered claims from October 1, 2006, through September 30, 2008.
The Medical Assistance Division ("MAD") of the New Mexico Human Services Department ("HSO") has
reviewed the Draft Audit, and collected information from the State's Coordination of Long Term Services
program ("CoLTS") regarding the ctaims Coordinated Home Health ("Coordinated") submitted . MAD
also requested, received, and reviewed documentation from Coordinated offered in support of its
response to the Draft Audit.

B.      Summary of Response

MAD strongly disagrees that the DIG's findings support the recommendation of the Draft Audit that the
State return $10,962,174 in federal funds paid to Coordinated . The Draft Audit identifies six categories
of "deficiencies" with respect to 100 reviewed claims, selected on a random basiS. It concludes that the
claims (or portions of claims) affected by these "defiCiencies" amounted to $7,734 (state and federal
share).1 It then extrapolates this conclusion to the universe of Coordinated's claims for the two-year
review period, and arrives at the amount of $10,962,174 in alleged "overpayments" of federal funds
during the audit period.

We respectfully disagree with this conclusion. Five of the six categories of "deficiencies," and 45 of the
46 allegedly deficient claims, involved no demonstrated overpayment of any kind. Rather, the findings
were only that particu lar documents were missing from the reviewed file. But the overall evidence
produced by the review clearly demonstrates that the underlying personal care services were valid,
allowable, and rendered to eligible beneficiaries, notwithstanding the absence of certain documents.

Moreover, for the most part, the missing documentation related not to federal requirements but to
state requirements. The applicable state law does not require recovery of payments made to providers
even if they were non-compliant with those state requirements.2 When the State determines that these
requirements have not been satisfied, the Quality Assistance Bureau ("QAB") has a policy and practice of
issuing corrective action plans to ensure full compliance in the future.) To the extent that the DIG relies
on DMB Circular A-87 as a basis for its state-law-based disallowance recommendations, MAD notes that
A-87 requires only that "costs . . . [b]e authorized or not prohibited under State or local laws or
regulations." 2 C.F.R. Pt. 225, App'x A, C.1.c. That is, pursuant to the plain language of this provision,


1 The Draft Audit examined only Coordinated's claims for personal care services. When this response
refers to the amount of a claim, it refers only to the amount included on the personal care services line
of each claim, and excludes any amounts claimed for other Medicaid services.
2 The State's documentation regulations in effect during the audit period required recoupment only if
HSD audits "show inappropriate billing for services," N.M. Admin. Code § 8.315.4.11A(14) (2004)
(emphasis added). The current state regulations similarly focus upon whether the underlying services
were in fact rendered by requiring "recoupment of funds . .. when audits show inappropriate billing or
inappropriate documentation/or services." Id. § 8.31S.4.12B(5) (2012) (emphasis added).
1 Nothing in this statement is intended to address situations covered by Medicaid fraud and abuse
provisions.




                                                                                              Page 1 of9
                                                                                                            Page 4 of 20




the federal government's ability to recoup turns on state law, and therefore when state law does not
require recoupment for the alleged violations at issue,.A-87 does not provide a basis for recoupment of
federal funds. To the extent that the DIG recommends a federal refund because some of the state law
provisions constitute attendant qualifications and 42 C.F.R. § 440.167 requires that personal care
services be provided by a qualified attendant, MAD believes that taking a disallowance based on State­
imposed qualifications will serve to deter States from imposing (or retaining) attendant qualifications
that help protect the health and safety of recipients. It would be unfair and counter-productive to
penalize States for voluntarily enacting heightened requirements for personal care attendants,
particularly when there is such diversity in the range of attendant qualifications that States currently
impose. See HHS, Office of Inspector General, States' Requirements for Medicaid-Funded Personal Care
Service Attendants ii (Dec. 2006) ("States have established multiple sets of attendant requirements that
often vary among programs and by delivery models within programs, resulting in 301 sets of attendant
requirements nationwide.").

While MAD acknowledges that the findings support a conclusion that there was a single overpayment of
$7.05, it does not support extrapolating that conclusion to the universe of all claims submitted during
the two-year review period. Rather than revealing a pattern of misclaiming or any systemic failure on
the part of Coordinated, the Draft Report identified only one instance of 0.5 hours of overbilling. The
OIG's findings here-that overbilling constituted less than 0.05 percent of the $15,079 in claims
contained in the audit review-are far too isolated to warrant extrapolation.

Overall, the findings of the Draft Audit reveal a provider that has been generally compliant with
applicable requirements. At most, the "deficiencies", which in significant pan reflect no more than the
inability to document every instance of compliance, warrant the State insisting upon a corrective action
plan from the provider. As explained in Coordinated's response letter, it has already voluntarily
undertaken actions to ensure documentation of future compliance with the underlying state and federal
requirements.

In short, for the reasons detailed above and below, it would be unreasonable for the federal
government to require recoupment of over 40 percent of the federal funds ($26,931,344) that
Coordinated received during the audit period for administering personal care option ("PCO") services.
The use of extrapolation to calculate a recoupment is particularly inappropriate here, where the OIG
reviewed only 100 cases (less than 0.04% of the total 277,724 claims) and discovered only one isolated
and minor instance of actual overpayment.

C.      Background

MAD is the single state agency responsible for administering New Mexico's participation in the Medicaid
program. In 1999, the State began providing PCO services to certain Medicaid-eligible individuals with a
disability or functional limitation who require assistance to enable them to live at home, rather than
being institutionalized. PCO services are made available under New Mexico's State Medicaid Plan
approved by the Centers for Medicare and Medicaid Services ("CMS").

Pursuant to 42 C.F.R. § 440.167, New Mexico has developed PCO eligibility and service criteria.
Individuals aged 21 or older who are eligible for full Medicaid coverage may receive pca services when
they require assistance with at least 2 Activities of Daily Living ("ADLs") as determined by a contracted
Third Party Assessor ("TPA"). peo beneficiaries work with a Medicaid-approved provider to select a
caregiver or attendant. Caregivers and attendants may be friends or family members, so long as they



                                                                                            Page 2 of9
                                                                                                            Page 5 of 20




have no financial responsibility for the beneficiary. State law provides that the consumer's legal
representative must receive approval from MAD to be the paid caregiver. Service delivery models
include Consumer Self·Directed or Consumer Delegated models.

Although for most of the time period covered by the Draft Audit, a state fiscal agent processed aU peo
provider bills under a fee-for-service model, on August 1, 2008, the State implemented the CoLTS
Managed Care System that covers all primary, acute, and long-term Medicaid and Medicare services,
including pea services. The CoLTS program operates under eMS-authorized, concurrent 1915(b) and (c)
Medicaid waivers. Two managed care organizations ("MCOs" )-AMERIGRDUP Community Care Inc. and
EVERCARE of New Mexico Inc.-have contracts to provide CoLTS services. The State phased in CoLTS in
certain geographic areas over the first year of implementation, and phased in all counties by April 1,
2009.

D.       Alleged Coordinated Deficiencies

The DIG's Draft Audit concluded that MAD did not always ensure that Coordinated's claims for Medicaid
PCD services complied with applicable federal and state requirements. The auditors determined that of
the 100 sample claims that were examined, 54 (totaling $6,939) were in full compliance and 46 (totaling
$8,140) were not. The auditors further determined that 3 of the 46 non-compliant claims were partially
allowable. In sum, the DIG asserts that Coordinated improperly claimed $7,734- $5,536 in federal
share-for the 46 sample claims.

The Draft Audit identified 60 alleged deficiencies contained in those 46 claims which fall into the
following 6 categories:

     •   Missing cardiopulmonary resuscitation ("CPR") and/or first aid certification (20 claims)

     •   Missing documentation of annual training (20 claims)

     •   Missing documentation of tuberculosis testing (9 claims)

     •   Missing documentation of supervisory visits (8 claims)

     •   Unsupported units of payment (2 claims)

     •   Missing physician authorization (1 claim)

As is shown in the following paragraphs, while one of the alleged categories of deficiencies indicates
that one claim was paid that should not have been, all the remaining categories involve technical or
documentation problems that do not support a conclusion that payments were improperly made.4




4 The Draft Audit also noted that Coordinated submitted claims for meal preparation and housekeeping

services even when the attendant lived in the same home as the beneficiary, though this claiming did
not violate either federal or state law in effect at the time.




                                                                                               Page 3 of9
                                                                                                               Page 6 of 20




        1.       Missing CPR or First Aid Certification

Draft Audit Finding: The DIG auditors determined that in 20 of the 100 sampled claims Coordinated
could not provide copies of the attendant's CPR or first aid certification as required by section
8.315.4.11A(2)(d) of the New Mexico Administrative Code ("NMAC'). The purportedly unallowable
amount of the claims in question totals $3,235.83.

MAD Response: There is no federal requirement that an attendant be CPR or first aid certified, and even
if the state requirement was not complied with, state law does not require withholding payment from
providers for the services furnished by the attendant . In most of the purported deficiencies at issue
here, Coordinated provided documentation of either CPR or first aid certification covering the time
period of the claim at issue, and documentation showing that the attendant was CPR and/ or first aid
certified for years either before or after the services were rendered . For some of the purported
deficiencies, Coordinated also provided documentation establishing that the attendant obtained the
missing certification shortly after the services in the sample claim were rendered. These types of
"deficiencies" by no means suggest a systemic failure to comply with the State' s CPR and first aid
requirements.

Since the audit period, Coordinated has centralized record keeping of attendant and client fi les in its
corporate office, instead of its regional offices. In its response to this audit, Coordinated asserts in its
response that this new system will help it achieve greater compliance with documentation
requirements. Further, since the middle of 2008, Coordinated has been utilizing Allscripts· software
designed to ensure regulatory compliance, instead of relying on manual controls. Coordinated asserts
that Allscripts· will prevent attendants from being scheduled for shifts unless all "compliance fields,"
including CPR/ first aid certification, reflect an up·to-date status.

        2.      Missing Annual Training Documentation

Draft Audit Finding: The DIG auditors found that for 20 of the 100 sample claims Coordinated lacked
documentation showing that attendants had completed 12 hours of annual training in the year in which
they furnished services to Medicaid recipients, as required by section 8.31S.4.11A(33) of the NMAC. The
purportedly unallowable amount of the claims in question totals $3,251.20.

MAD Response: Federal law does not require attendants to undergo a specified amount of training each
year, and therefore there is no justification for withholding federal funds based on a finding that such
training was not provided . Even assuming that the state requirement had not been fully met, state law
does not require withholding payment where the requirement is not met.

For these allegedly deficient claims, Coordinated generally provided documentation that the attendant
completed multiple hours of training in the year in which the services were furnished, even if it could
not document that the attendant completed the full 12 hours. In many of these cases, Coordinated
established that the attendant satisfied the 12-hour requirement either in the prior calendar year or the
following calendar year. For example, Coordinated documented that the attendant in sample claim 27
attended 11 hours of training in 2006 (the year in which the sampled services were provided),
completed what would have been the 12th hour of training within a month of the end of calendar year
2006, and subsequently completed 12 additional training hours in 2007 . Similarly, Coordinated provided




                                                                                               Page 4 of9
                                                                                                                   Page 7 of 20




documentation establishing that the attendant in claim 6S completed over 30 hours of training from the
beginning of 2007 to the end of 2009, but because she had not completed 12 hours during calendar year
2008, the DIG recommends disallowing of the sample claim. S These types of purported deficiencies do
not suggest that Coordinated' s attendants were unqualified to provide personal care services. Nor do
they indicate a widespread failure of Coordinated' s attendants to complete training.

Further, as mentioned in more detail above, Coordinated has centralized its recordkeeping of attendant
and cl ient files in its corporate office, and begun utilizing Aliscripts· to prevent the staffing of attendants
who lack documentation of compliance with the annual training requirements.

        3.       Missing Tuberculosis Testing Documentation

Draft Audit Finding: The DIG auditors found that for 9 of the 100 sample claims Coordinated lacked
documentation showing that the attendant had received a tuberculosis ("TB" ) skin test or chest x-ray
and tested negative for TB, as required by section 8.315.4 .l1A(37) of the NMAC. The purportedly
unallowable amount of the claims in question is $2,416 .39.

MAO Response : There is no Federal requirement that an attendant receive TB screen ing, and even if
the state requirement had not been met, state law does not require withholding payment from
providers for the services furnished by the attendant. Enforcing this type of state requirement by
withholding federal funds, when it is otherwise apparent that eligible services were provided to an
eligible recipient, is unwarranted . In addition, the DIG' s findings do not show a w idespread pattern of
noncompliance. Coordinated was unable to locate testing documentation for less than 10 percent of
the sample claims, and attendants in 4 of the 9 purportedly deficient claims were tested within a year of
the claim at issue. The attendants at issue in 8 of the 9 "deficiencies" were later tested; none of the
attendants tested positive for TB.

In addition, since the audit period, Coordinated has centralized record keeping in its corporate office,
and employed new software that monitors attendant qualifications and would prevent attendants from
being staffed if they have not undergone the requisite TB testing. Coordinated' s response indicates that
these corrective measures will help it achieve greater compliance with documentation requirements
moving forward .

        4.       Missing Documentation of Supervisory Visits

Draft Audit Finding: The DIG auditors determined that for 8 of the 100 sample claims Coordinated did
not provide evidence that attendant supervisors had met with recipients and/ or their personal
representatives in the recipients' homes at least once a month, as required by section 8.315.4 .l1A(31)
of the NMAC. The purportedly unallowable amount of the claims in question is $1,132.42 .




5 The hour totals are based on training quizzes Coordinated provided, some of which indicate that they
correspond to one hour of training cred it, but others of which are silent as to how many hours of
training credit they involve. For the quizzes in the latter category, Coordinated appears to have
considered each to have involved one hour of training, and the DIG apparently has not taken issue with
this approach. The State sees no reason to question Coordinated' s approach and thus considers each
quiz as representing one hour of training .




                                                                                                  Page 5 of9
                                                                                                            Page 8 of 20




MAO Response: Federal law does not require that providers maintain documentation of monthly
attendant supervisor visits; thus, there is no justification for withholding federal funds on this basis.
Even assuming that the state requirement was not met, state law does not require withholding payment
from providers when such documentation is missing. Under these circumstances, taking a disallowance
based solely on a violation of state law is inappropriate. and would only serve to discourage States from
voluntarily imposing robust regulatory regimes to govern the provision of personal care services. Nor
does this state requirement have any bearing on whether an attendant is "qualified" to provide personal
care services for purposes of federal law under 42 C.F.R. § 440.167.

In addition, the DIG recommends recoupment based in part on highly technical violations of this state
rule . For example, the DIG recommends recouping sample claim 41 even though Coordinated
documented 12 different supervisory visits in calendar year 2007, including at least one in every month
other than November 2007, when the sampled services were provided . Similarly, for sample claim 96,
Coordinated documented monthly supervisory visits from February 2008 to June 2008, with the
exception of March 2008, the month in which the sampled services were provided . For sample claim 48,
Coordinated provided documents showing that the supervisor visited the recipient' s home 3 times
during the month at issue, and called at least once, but each time the beneficiary was not home.
Recommending a disallowance based on these types of technical violations is inappropriate and ignores
reality, especially for the latter instance in which the supervisor made multiple, good faith efforts to
comply with the monthly visit requirement.

        5.      Unsupported Units of Payment

Draft Audit Finding: The DIG determined that for 2 of the sample claims Coordinated failed to provide
documentation supporting the claim for services . The purportedly unallowable amount of the claims in
question is $454.65 .

MAD Response : Coordinated ha s conceded that it should not have been paid for the 0.5 hour of
services at issue in sample claim 56, and will return that $7 .05 to HSD. MAD notes, however, that this
overbilling is, at most, an isolated occurrence and the am ount of the overpayment is a miniscu le
percentage of the total claims reviewed. This $7.05 is less than 0.05 percent of the $15,079 in PCO
claims contained in the 100 cases included in the audit review.

As for sample claim 79, for which Coordinated was unable to provide documentation supporting
$447.60 in services, there is no affirmative evidence that the services in question were not provided.
Rather, there was simply a missing timesheet. Considering Coordinated' s low rate of misclaiming, the
more likely explanation is that Coordinated misplaced the timesheet supporting the services at issue.

In 20OS, Coordinated began using Allscripts· to ensure accurate billing. In its response to this audit,
Coordinated asserts that this softwa re records the attendant' s start and finish time and automatically
calculates the hours worked, and also generates weekly reports for any shifts not supported by a
timecard, thereby facilitating prompt submission of timecards and preventing the submission of claims
without timecards .

       6.       Missing Physician Authorization

Draft Audit Finding: The OIG auditors found that 1 of the 100 sample claims lacked documentation
demonstrating that the recipient had obtained prior physician authorization for the furnished services,




                                                                                            Page 6 of9
                                                                                                               Page 9 of 20




as required by § 440.167 and section 8.31S .4.16A(1) of the NMAC. The purportedly unallowable amount
of the claim in question is $441 .09.

MAD Response : The absence of a physician authorization form in only 1 of 100 sample cases does not
support a conclusion that the services in that case were not provided pursuant to a physician's
authorization. The requisite forms were apparently found in the other 99 case records reviewed . The
far more reasonable conclusion from these facts is that the evidence of the physician's authorization in
this singe instance was lost or misplaced . The existence of the necessary documentation in the other 99
cases is powerful evidence that the provider's uniform practice was to secure such authorizations prior
to rendering the se rvice . In fact, it is difficult t o see how the service could be provided in the absence of
a physician's authorization, which would normally accompany the development of the service plan for
the recipient. Moreover, Coordinated provided a Medical Assessment Form for the recipient at issue
that was signed by a medical doctor, demonstrating that a physician was involved in assessing the
beneficiary's needs.

        7.       Other peo Matters

Draft Audit Finding: The OIG aud itors found that for 30 of the sample claims Coordinated charged a
total of $1,829 in attendants' meal preparation and housekeeping services even though the attendants
and reCipients lived in the same home. The OIG determined that, at the time, such claims did not vio late
federal or state law; however, the State has since amended sections 8.315.4.16 and 8 .315 .3.17 of the
NMAC to prohibit such claims.

MAO Response: MAD concurs that the claims for meal preparation and housekeeping services provided
by an attendant living in the recipient's home did not violate federal or state law in effect during the
time period covered by the Draft Audit.

E.      State Poliey Changes and Compliance Measures

As shown above, since 2009, PCO services have been provided in New Mexico entirely through the
CoLTS Managed Care System. Two MCOs have been responsible for the delivery of the services and for
assuring provider compliance with applicable state and federal requirements. Yet MAD retains ultimate
responsibility for this, as well as all other aspects of the State's Medicaid program, and has mounted a
range of actions to assure that PCO services are provided properly and in co mplia nce with the law. The
State' s continuing efforts in this area have included a series of regulation changes adopted in 2010 and
2011, and im plementation in 2010 of a Monthly PCO Billing and Administrative Workgroup to evaluate
and spur improvement in program performance. In addition, the State has taken a number of corrective
measures that focus on the areas addressed by the Draft Audit findings, all of which have been intended
to im prove provider performance.

The State's efforts at improved performance are continuing. It has begun planning for an evidence­
based program monitoring system that will enhance the quality of PCO services. In addition, it is
exploring the implementation of a telephonic and GPS tracking system to allow for automatic generation
of PCO provider timesheet entries. There is a $2 million cost associated with this enhancement.

The Appendix to this Response describes in greater detail the steps that the State has taken and plans
on taking in the near future to assure improved program performance . The State is confident that these
steps have contributed and will continue to contribute to the high level of performa nce and compliance
that has characterized its PCO providers, includ ing Coordinated .


                                                                                                  Page7of9
                                                                                                          Page 10 of 20




F.      Response to Proposed Overpayment Recovery

After concluding that 46 sample claims resulted in overpayments, the Draft Audit extrapolates the total
refund due to the federal government, and recommends that New Mexico repay the federal
government $10,962,174 for alleged unallowable pee service claims submitted by Coordinated from
October 1, 2006 through September 30, 2008.               The State takes strong exception to this
recommendation .

As shown above, there is no justification for recovery of any federal funds, with or without
extrapolation, with regard to 4S of the 46 questioned claims. For these claims, the findings of the Draft
Audit do not support a conclusion that payments were improperly made.

Further, to the extent the absence of documentation in the case file relates to state requirements,
rather than to provisions of the federal regulations, it is inappropriate to withhold federal funding.
Nothing in state law requires that funds necessarily be withheld in any instance where a case record fails
to document compliance with these state requirements.

As to the portions of the Draft Audit relating to excessive billing, the findings reveal no pattern or
practice of non-compliance by Coordinated . To the contrary, the DIG auditors identified only one
instance of overbilling, amounting to $7.05 of the total $15,079 in PCO claims reviewed in the audit.
This would mean that Coordinated' s error rate is only 0.05 percent, fa r less than the tolerance levels
established in various quality control programs in Medicaid and other federally funded programs. See,
e.g. , 42 C.F.R. § 431.865 (establishing a 3 percent tolerance limit for eligibility errors in the Medicaid
Eligibility Quality Control program); 42 C.F.R. § 483.25(m) (requiring nursing facilities to be free of
medication error rates of 5 percent or greater, and be free of significant medication errors); 45 C.F.R. §
205.42 (1980) (establishing a 4 percent tolerance limit for payment errors in the Aid to Families with
Dependent Children program) . In these programs, it is standard federal policy, when overall
performance is within the established tolerance limits, to seek recoveries only for specific overpayments
actually identified, and not to extrapolate the results of a review to the caseload as a whole . That policy
should be applied in this case, where the level of erroneous payments is as low as it is.

It should also be mentioned that extrapolation of the results to the caseload as a whole to recover over
$10 million from the State is inappropriate given the continuing efforts of the State (detailed in the
Appendix) to assure high quality and compliant performance by PCO providers, even after the
conversion to a managed care delivery system .

As has been explained to CMS and the DIG in previous communication relating to this and other audits,
the State is deeply concerned about the approach the OIG has taken in its four audits of personal care
providers in New Mexico. The auditors have transformed every deviation from perfection in the
maintenance of case and attendant files that are several years old into a determination of an
overpayment, without regard to whether the alleged deficiency is reflective of any mistaken payment to
the provider, and have extrapolated these resu lts to the entire universe of claims over an extended
period of time to arrive at overpayment recovery recommendations that are utterly disproportional to
the actual degree of provider misclaiming. This approach threatens, in the aggregate, to seriously impair
the ability of the State to fund its current Medicaid program .




                                                                                               Page8of9
                                                                                                         Page 11 of 20




G.      Conclusion

While there is always room for improvement, and the State intends to continue its longstanding efforts
to enhance performance of its pea providers, the results of the federal review should provide comfort
to federal officials that federal funds are being properly spent in the case of Coordinated's pea services.
The State would be prepared to repay $5.01, the federal share associated with the sole instance of
               s
overbilling.




6 ThiS amount was calculated by applying the applicable FMAP rate (71.04 percent) for the t ime period
of the claim at issue (August 2008) to the total $7.05 overpayment.




                                                                                              Page 9 of9
                                                                                                                  Page 12 of 20




           Appendix: State Policy Changes and Compliance Measures
1. 	 Overall PCO Improvements

Cal Regulation Changes

In the last year and a half, the state has revised and improved the             pea   regulations three times to
enhance the State's ability to ensure that the claims submitted by pea providers comply with Federal
and State regulations.

September 15, 2010 pca Regulation Changes:
    •	   Added language to the CoLTS managed care regulations clarifying the respective roles and
         responsibilities of MCOs and TPAs;
    •	   Added language requiring MCOs to identify Natural Supports; and
    •	   Added language requiring MCOs to assess services provided to pee consumers who share a
      home.
December 30, 2010 pea Regu lation Changes:
   •	    Added language throughout the      pea regulations clarifying that an inpatient or resident of a
         hospital, nursing facility, Intermediate Care Facility for the Mentally Retarded (1tICF_MR H ),
         mental health facility, correctional facility or other institutional setting (except for recipients of
         community transition goods and services) is not eligible for    pca services;
   •	    Added language clarifying that duplicative     pea services are not allowed for individuals receiving
         the same or similar services by other sources, including natural supports;
   •	    Added cognitive assistance as a service within each ADL and IADl service rather than a stand­
         alone service;
   •	    Required a legal representative for self-directed individuals who cannot make their own choices
         or communicate their responses;
   •	    Restructured consumer delegated and directed regulations to avoid repetition and to describe
         adequately the roles and responsibilities of pee agencies, caregivers, and beneficiaries;
   •	    Replaced the MAD 075 Medical Assessment Form with the Income Support Division ("150") 379
         Medical Assessment Form, which can be completed using form fields for entry;
   • 	 Clarified which    pee services are or are not covered    by Medicaid;
   •	    Reduced the hours in which temporary authorization is given, and made this requirement
         applicable to all new   pea recipients; and
   •	    Included in the regulation MAD 055, the       pee Service Guide, which helps standardize and ensure
         the accuracy of the calculation of time in which    pea services are furnished. For each pee
         recipient function level, the Guide provides a narrative or worksheet establishing standard
         service time ranges.




                                                                                                Page Al of A9
                                                                                                         Page 13 of 20




September 15, 2011    peo Regulation Changes:
   •	   Revised the MAD 055 ("pee Service Guide") to combine the pre-existing 10 pea services into 6
        service categories, and to determine appropriate service time ranges for each service:

            1. 	 Hygiene and Grooming-Bathing, dressing, grooming and doctor prescribed skin care;

            2. 	 Bowel and Bladder;

            3. 	 Preparing Meals;

            4 . 	 Eating;

            5. 	 Household and Support Service-Cleaning. laundry, shopping and minor up-keep for
                 medical equipment; and

            6. 	 Supportive Mobility Assistance-Special help transferring from one place to another,
                walking, and changing positions, provided that such assistance is not part of another
                pea service.

   •	   Each service includes time spent on "Mo bility Assistance" and spoken reminders (called
        " Prompting and Cueing");

   • 	 Prohibited prior authorizations ("PA") that are retroactive or extend beyond the level of care
        ("LOC") authorization period;

   • 	 Permitted an MCO to authorize time outside of the time set forth in the MAD 055 for furnishing
        services to a beneficiary based on his or her verified medical and clinical need(s);

   •	   Required MCOs to discuss with the consumer the results of the service assessment, function
        level for each PCO task on the MAD 055, and the applicable service time range during the in­
        home service assessment;

   • 	 Required MCOs to make a good faith effort to conduct a pre-hearing conference for
        beneficiaries who request a State fair hearing, During the pre-hearing conference, the MCO
        must explain how it applied the PCO regulations, and examine whether additional service time is
        necessary based on a consumer's verified medical and clinical need(s);

   • 	 Clarified that under section 8.352.2 of the NMAC, a PCO recipient who disagrees with the
        authorized number of hours may utilize the CoLTS MCa grievance and appeal process and the
        State's fair hearing process consecutively or concurrently; and

   • 	 Clarified that the beneficiary, not the provider, is responsible for repaying the cost of continuing
        benefits pending a fair hearing decision.




                                                                                           Page A2 ofA9
                                                                                                           Page 14 of 20




(b)   pca Billing and Administrative Workgroup
In 2010, in addition to amending the      peo regulations, MAD implemented a new Monthly peo Billing and
Administrative Workgroup to evaluate        peo provider and ColTS Mea billing and administrative issues,
and to improve the program's         performance. The Workgroup was made up of several peo providers,
MeQ staff, and     representatives from several State Bureaus (CoLTS, Long Term Care Services and Support
("LTSSB"), Quality Assurance, Contract Administration and Program Information).

The Workgroup identifies systemic problems in the         peo   program, root causes for such problems, and
possible solutions. In particular, the Workgroup has been tasked with improving the following areas of
the PCO program:

      •   Eligibility;

      •   MCO Assessments/Authorizations/Hours;

      •   TPA/level of Care;

      •   Service Coordination;

      •   Transfers from one agency to another;

      •   Provider Education;

      •   Billing; and

      •   Fraud and Program Integrity.

The Workgroup has developed a PCO survey and used the findings from the survey to further refine
areas of needed improvement. Many of the regulation changes identified above originated from this
Workgroup to correct error-prone areas. The committee members have also developed work and
process flows to help clarify PCO roles and responsibilities, and identify opportunities for program
improvement.

The Workgroup is chaired by the ColTS Bureau Chief, in co llaboration with PCO providers and MCOs.
The PCO Service manager updates the Workgroup's work plan to ensure that it is accountable for, and
successfully addresses the areas of the PCO program listed above .

(c) Continuous Quality Improvement ("CQI") Model for            pea
MAD recognizes that an evidence-based approach to program monitoring is one of the best ways to
ensure that PCO services are administered in the manner specified in the Federal and State regulations,
and safeguard participants' health and welfare.            MAD will design and adopt an evidence-based
approach to PCO quality modeled after CMS's CQI model for Home and Community Based Services
("HCBS") waivers.        Planning for this initiative began with the PCO Billing and Administrative Workgroup
in October 2011. A smaller workgroup, "Continuous Quality Improvement for PCO", was formed and
the first meeting was held on April 12, 2012. At this first meeting principles for measures were




                                                                                             Page A3 of A9
                                                                                                                  Page 15 of 20




 identified, and a target date for recommendations was set as July 2012.                 Members of the group
 conducted a thorough review of existing measures and adopted the eMS Hess Waiver Assurance
 Domains and eMS Quality Framework Domains and Desired Outcomes . See M. Booth, & J. Fralich , ,
 Rutgers Ctr. for State Health Policy, Univ. of S. Maine, Performance Measurement: Managing and Using
 Home and Community· Based Services Doto for Quality Improvement (Apr. 2006). Recommendations
 from members of the CQI group will be presented at the next meeting of the                      pea Billing and
 Administrative Workgroup.           MAD's CQI model will impose requirements similar to the statutory
 assurances states make to eMS as a condition of approval for a HeBS waiver through assurances and
 sub-assurances structured in a manner similar to the following :



                                 Example #l-Modeling PCO CQI after HCBS Waivers
                                 Persons enrolled in pea have needs consistent with an institutional level of
1.      Level of Care
                             I   care .



Iz.     Service Plan
                             I   Participants have a service plan that is appropriate to their needs and
                                 preferences, and receive the services or supports specified in the service
                                 plan.

3. Provider
                                 pea providers are qualified to delive r services or supports.
        Qualifications
                             I
                                 Participants' health and welfare are safeguarded, and pea Attendants are
4       Health and Welfare
1   .                            trained, certified and qualified to provide pea services.

[5.     Financial                Claims for pea services are paid according to State and CoLTS Mea payment
        Accountability           methodologies specified in the regulations and Mea handbooks.
I6.     Administrative
                                                                                                              -
                                 MAD is actively involved in overseeing pea services and ultimately 

        Authority 
              responsible for all facets of such services.



                                                  Example II 2-Sub-Assurances

                                  The levels of care of enrolled participants are reevaluated at least annually


                                   Service plans and IPoes are updated or revised at least annually and upon
                                   participant need.

                                   Se rvices are delivered in accordance with the IPoe, including the type,
                                   scope, amount, and frequency specified in the service plan.

                                   Participants are afforded choice between the delegated and self-directed




                                                                                                 Page A40f A9
                                                                                                           Page 16 of 20




                              services model, and providers.


    Provider                The state and MeO verify that providers initially and continually meet
                            required licensure and/or certification standards, and adhere to other state
    Qualifications
                            standards before waiver services are furnished .

                            The state and Meo verifies that attendants initially and continually meet
4. Attendant                required training and certification standards (including CPR and criminal
    Qualifications          history screening), and adhere to other state standards before pee services
                            are administered .



Similar to the HeSS CQI model, MAD will use "Discovery" methodology in the monitoring process to
uncover deviations from program design.        Discovery will allow Program managers to know when
program processes are not being followed, and when the assurances and sub-assurances are not being
met. MAD will establish performance measures that are measurable and can be included as a metric,
have facial validity, are based on a correct unit of analysis, and are representative. MAD will further
identify (1) the data source(s) for each performance measure; (2) a method for assuring that the data
will be representative; (3) information on the party or parties responsible for collecting, reviewing. and
using the data to manage the program; and (4) the frequency with which summary (Le ., aggregated)
reports will be generated and reviewed .

When the State identifies instances in which the pca program is not operating as intended and does not
comply with State and Federal regulations, the State will initiate remediation actions to address and
resolve all uncovered, individual problems. The pca Billing and Administrative Workgroup will review
and advise on the remediation process.


2. Corrective Measures Relating to Coordinated Deficiencies
The State has taken several corrective measures that address t he defiCiencies identified in the Draft
Audit, and provide assurance that claims submitted by Coordinated and other pce service providers
comply with federal and state law.

(a) CPR Certificati on

The MCas stipulate in their contractual agreements that pca agencies are required to abide by all state
and federal regulations, including requiring all attendants to have current and valid ePR certifications.
As detailed above in the discussion of corrective strategies relating to the annual training requirement,
Mea has established strategies for assuring compliance with the ePR certification requirement.

Since the transition to Managed Care, pea providers have been requ ired to develop an IPoC service plan
in accordance with the services authorized by the consumer's MCO. Agen cies must keep on file the
Mea' s authorization for services.




                                                                                         Page AS of A9
                                                                                                           Page 17of20




(b) Annual Training
In September and December 2010, the State revised the peo requirements to stress the importance of,
and adopt measures to facilitate, compliance with the tra ining requirements.

First, the State provides staff training materials and technical assistance electronically to   pea agencies.
Guidance on the training requirement, documentation required to demonstrate compliance with the
training regulations, and the technical assistance documents provided at trainings are posted to the
Adult and Long·Term Services Division ("ALTSO") website. The State is working to move these materials
to MAD's website. MAD also sends updates on pea to the Executive Director of the New Mexico
Association for Home and Hospice Care, who then regularly sends the updates to pce agencies through
regular email blasts.
Next, both of CoLTS MeOs-Evercare and Amerigroup-provide pee agencies with continuing education
regarding the State regulatory requirements and responsibilities.       Evercare provides such education
both quarterly and monthly, and documents attendance at such events. The Mces also stipulate in
their contractual agreements that pce agencies are required to abide by all state and federal rules of
regulations, including the 12 hours of annual training.

    • 	 Evercare's Compliance team conducts year-round desk audits of pee agencies that pull the files
        of a random sample of agencies over a 9 to 12 month time period. If the Compliance team
        provides Quality of Care, or fraud, waste, and abuse reports, the sample size and timeframe
        reviewed may be expanded . Following the audit, the pce agency receives either an Opportunity
        Plan for Improvement or a Corrective Action Plan. Non-compliance with the latter risks
        contractual termination of the PCO agency's contract with Evercare.

    • 	 Amerigroup's Quality Management Department (uQMDU) regularly reviews PCO documentation
        to investigate beneficiary complaints, critical incidents, and other quality improvement
        initiatives. If a review indicates that peo requirements have not been met, Amerigroup's QMD
        will contact the PCO agency to obtain policies and procedures for personal care attendant
        qualifications, training records, and corrective action plans explaining what steps the attendant
        can take to comply with pee requirements.           If an agency's failure to comply with pce
        requirements is egregious and/or the agency does not comply with the request for a corrective
        action plan, Amerigroup initiates sanctions ranging from a moratorium on new authorizations
        and transfers, to termination of the pce agency's contract.

(el TB Testing
Beginning in 2009, the training required of new peo providers has emphasized the importance of
compliance with the requirement for TB testing.          Effective December 2010, MAD's revised peo
regulations clarified the requirement to follow the current recommendations of the New Mexico
Department of Health ("NM DOW) and the Federal Centers for Disease Control ("CDC"). Technical
assistance documents provided at the trainings were posted on the ALTSD and MAD websites to further
reinforce this regulatory requirement and provide guidance on the process, including the required form
and contact information for the NMDeH TB program. MAD also emails updates on pee compliance
issues to all pce providers. These emails are cc'd to designated MCe staff and to the Executive Director




                                                                                           Page A60f A9
                                                                                                         Page 18 of 20




of the New Mexico Association for Home and Hospice Care ("NMAHHC"), who then fOl"lNards the
updates to   peo agencies through regular email blasts to NMAHHC members.
As detailed above in the discussion of corrective strategies relating to the annual training requirement.
each of the ColTS MCOs provides peo agencies with continuing education regarding the State
regulatory requirements and responsibilities. The State is developing a training plan for pee providers
that will include increased State oversight of the training and materials provided by the MCOs. The
MCOs also stipulate in their contractual agreements that   peo agencies are required to abide by all State
and Federal rules of regulations, including the requirement to maintain documentation of compliance
with the requirement for TB testing of each attendant.

(d) Supported Units of Payment

Following the audit period covered by the Draft Audit, pea services managed through the CoLTS
managed care contract have significantly changed the way that pea services are billed and paid.

Meas now require each peQ agency to obtain Mea authorization for pea services and timesheets
before a claim will be paid.   Each Mea has claim processes in place that include methods for assuring
that no unsupported claims are paid, including data mining to review units claimed, authorized units,
billed claims, and paid claims. In accordance with the State CoLTS contract, each MCa must investigate
pursuant to internal compliance procedures and report all instances of fraud, waste, or abuse within 5
business days of detecting suspicious activity to the QAB.

The MCas investigative unit must employ a consistent investigative strategy that includes logical
investigative plans with defined and appropriate investigative measures. In conducting its investigation,
the Mee may contact the complainant to verify the allegations and request pce records from the
provider. The MCe must review and research the provider's contract and claims exposure, and any
public records pertinent to the allegations. The Mee's report to MAD must identify the pea provider at
issue by name, address, and Mca and National Provider Identification ("NPI") numbers. In addition, the
notification provides information on the affected beneficiar(yjiesj, date, source and nature of
complaint, approximate dollars paid, and a description of the allegations and preliminary findings. The
MCQ's report constitutes a "notification of complaint."

If QAB refers the allegations to the affice of the Attorney General ("AG"), the MCQ investigative unit
assists the AG's office in a supportive role. If QAB does not refer the allegations to the AG's office, the
investigative unit may pursue recoupment.

Since 2008, to ensure compliance with federal and state pea requirements, the State (ALTSD or MAD's
current Quality Assurance program) has conducted site reviews of selected pee agencies. During these
site reviews, the State has compared pca providers' timesheets against the approved plans of care and
Mca authorizations. When deficiencies are identified, the State issues corrective action plans.

In addition, the revisions the State made to pca regulations in September 2010 and December 2010
stressed the importance of timesheet accuracy. The technical assistance documents provided at pee
trainings, and posted on the ALTSO and MAD websites include a section on "Ensuring Timesheet



                                                                                          Page A7 of A9
                                                                                                          Page 19 of 20




Accuracy."   The State holds quarterly trainings for providers on      pea   requirements including those
relating to t imesheets, and held two webinars (October 18, 2011and November 2, 2011) on the revised
regulations that went into effect September 2011.

The most recent training for providers by State staff on regulations occurred on May 22, 2012 .

(e)     $upervisoryVisits

Beginning in 2009, the training required of new       pea   providers has emphasized the importance of
compliance with the State requirement for monthly in-home supervisory visits. Effective December
2010, MAD's revised pea regulations to clarify this requirement and to specify what content must be
included in home visit documentation. Technical assistance documents provided at the trainings and
posted on the ALTSD and MAD websites further reinforce this regulatory requirement and provide
guidelines for a supelVisory home visit.

As detailed above in (b), each CoLTS Mea provides pea agencies with continuing education regarding
the State regulatory requirements and responsibilities. The State is developing a training plan for peo
providers that will include increased oversight of the information provided by the Meos.

The MeOs stipulate in their contractual agreements that peo agencies are required to abide by all State
and Federal regulations, including requiring all agencies to conduct and document the monthly
supervisory home visit. As detailed above in the discussion of corrective strategies relating to the TB
testing requirement, each Mea has established strategies for assuring compliance with the monthly
supelVisory home visit requirement.

(f)     Physician Authorization

As explained above, the State's managed care system requires pea providers to develop an IPoC selVice
plan consistent with the selVices authorized by the pea, and to keep on file the MCa' s authorization .

Each Mca tracks LOe-approved time spans authorized by the TPA and sends the authorizations to the
pco agencies on a tracking sheet . Additionally, MCas track the LOC expiration date so that beneficiaries
can be notified at least 120 days prior to the expiration date so the beneficiary can begin collecting
information needed to renew the LaC. If the renewal documentation is not submitted in the next 30
days, Meas send a second letter to the beneficiary again requesting the documentation. This letter
instructs the beneficiary to take two attached forms to his or her physician for completion, and to return
the forms to the Mea via e-mail or fax. Each Mea also works with the state to identify any beneficiaries
for whom the Loe period is unclear to avoid gaps in the Loe process. MAD and the Meas are currently
revising this notification process to ensure compliance with Federal regulations.

3. Other pea Matters
When it revised the pea regulations in December 2010, MAD introduced a pea Service Guide to record
obselVations and responses to an individual's functional level and independence to perform ADLs and
IADLs. The guide provides an impairment rating system for identifying pea selVices and service time




                                                                                           Page A8 of A9
                                                                                                          Page 20 of 20




ranges. The guide requires a selVice coordinator to identify and record whether the beneficiary shares a
household with other     pee   recipients and name the other      pee   recipients.    The new   pee   rules
strengthened the regulations to clarify that duplicative   pee   services are not allowed for individuals
receiving the same or simitar services by other sources, including natural supports.


4. Planned Upgrade in Service Reporting
The State hopes to put in place a telephonic and GPS tracking system already implemented by several
other states, including New York and Washington, that would enable time sheets to be automatically
generated. Under this system, each day, either an attendant would call in whenever he or she begins
and finishes providing peo services to each beneficiary, or the attendant's location would be tracked
using a GPS system to determine when the attendant was at a site to furnish services to a beneficiary.
The system would then automatically fill in the attendant's time sheets and calculate the hours the peo
provider would claim .   This system should substantially reduce the potential for human errors in
entering time sheets, while minimizing the time required to complete time sheets.          The State has
estimated that this system would cost approximately $2 million.




                                                                                          Page A9 of A9
